No. 20-____
IN THE

Supreme Court of the United States
————
OLD REPUBLIC HOME PROTECTION COMPANY, INC.,
Petitioner,
v.
WILLIAM B. SPARKS, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
Supreme Court of Oklahoma
————
PETITION FOR A WRIT OF CERTIORARI
————
MICHAEL D. LEFFEL
FOLEY & LARDNER LLP
150 East Gilman Street
Madison, WI 53703
(608) 258-4216

JAY N. VARON
Counsel of Record
FOLEY & LARDNER LLP
3000 K Street, N.W.
Washington, D.C. 20007
(202) 672-5380
jvaron@foley.com

AARON R. WEGRZYN
FOLEY & LARDNER LLP
777 East Wisconsin Avenue
Milwaukee, WI 53202
(414) 297-5156

KENDALL E. WATERS
FOLEY & LARDNER LLP
555 South Flower Street
Los Angeles, CA 90071
(213) 972-4899

Counsel for Petitioner
August 25, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
In Epic Systems, Corporation v. Lewis, 138 S. Ct.
1612 (2018), this Court “rejected efforts to conjure
conflicts between the [Federal] Arbitration Act and
other federal statutes[,]” as it has done with “every
such effort to date[.]” Id. at 1627 (emphasis in
original).
The state supreme court in this case conjures a
conflict, this time purporting to preempt the FAA
based on the Oklahoma Arbitration Act and
(mis)application of the McCarran–Ferguson Act. Its
opinion deepens a split in authority involving other
state courts of last resort and federal courts of appeals
analyzing these same issues, and it is at odds with this
Court’s precedent. The two-part question presented is:
Whether, in a case involving interstate commerce
and a written contract with an arbitration provision
that expressly requires application of the FAA, a state
arbitration statute that by its terms “shall not apply
to
***
contracts which reference insurance”
(a) qualifies as a “law enacted by [a] State for the
purpose of regulating the business of insurance”
under the McCarran–Ferguson Act, and (b) can
support reverse preemption of the FAA based on an
asserted impairment of such a state law.

(i)

ii
PARTIES TO THE PROCEEDING
Old Republic Home Protection Company, Inc.,
petitioner on review, was the defendant-appellant in
the Supreme Court of Oklahoma.
William B. Sparks and Donna Sparks, respondents
on review, were the plaintiffs-appellees in the
Supreme Court of Oklahoma.
CORPORATE DISCLOSURE STATEMENT
Petitioner Old Republic Home Protection
Company, Inc. is a wholly owned subsidiary of ORHP
Management
Company.
ORHP
Management
Company is a wholly owned subsidiary of Old
Republic General Insurance Group, Inc., which in
turn is wholly owned by Old Republic International
Corporation, a publicly traded corporation. No
publicly traded corporation, other than Old Republic
International Corporation, owns 10% or more of Old
Republic Home Protection Company, Inc.’s stock.

TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ............ ii
TABLE OF AUTHORITIES ....................................... v
PETITION FOR A WRIT OF CERTIORARI ............. 1
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 4
STATEMENT OF JURISDICTION ........................... 5
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .............................. 5
STATEMENT OF THE CASE.................................... 6
Factual Background ......................................... 6
The Revised Uniform Arbitration Act
and Oklahoma’s Enactment ............................ 9
Proceedings Below ........................................... 9
REASONS FOR GRANTING THE WRIT ............... 13
I. REVIEW IS WARRANTED BECAUSE THE
DECISION BELOW REFLECTS A SPLIT IN
AUTHORITY ON ANALYZING WHETHER,
UNDER FEDERAL LAW, STATE ARBITRATION
STATUTES REGULATE THE BUSINESS OF
INSURANCE. .......................................................... 13
II. REVIEW IS WARRANTED BECAUSE THE
DECISION BELOW IS AT ODDS WITH THIS
COURT’S PRECEDENT AND IT IS INDICATIVE
(iii)

iv
TABLE OF CONTENTS – Continued
Page
OF INCONSISTENT DECISIONS FROM
APPELLATE COURTS ADDRESSING WHEN, IF
EVER, ENFORCEMENT OF THE FAA IMPAIRS
A STATE STATUTE ENACTED FOR THE
PURPOSE OF REGULATING INSURANCE. ................ 21
III. THE QUESTION PRESENTED IS RECURRING
AND IMPORTANT.................................................... 28
CONCLUSION.......................................................... 31

Appendix A: Supreme Court of Oklahoma,
Opinion, May 27, 2020 ........................................ 1a
Appendix B: Court of Civil Appeals of the
State of Oklahoma, Opinion, November 19,
2018 .................................................................... 25a
Appendix C: District Court of Cleveland
County, Oklahoma, Summary Order,
February 7, 2017 ............................................... 54a
Appendix D: ORHP Motion to Stay and
Compel Arbitration, District Court of
Cleveland County, Oklahoma, January 19,
2017 .................................................................... 55a
Appendix E: Declaration of Coverage Issued by
ORHP to Donna Sparks .................................... 63a
Appendix F: Oklahoma Home Warranty ............... 66a

v
TABLE OF AUTHORITIES
Page
CASES
Allied-Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995) ............................................... 2
American Bankers Ins. Co. v. Inman,
436 F.3d 490 (5th Cir. 2006) ............................... 20
American Guar. & Liab. Ins. Co. v.
Abram Law Grp., LLC, No. 1:11-cv3483-SCJ, 2013 WL 12099359
(N.D. Ga. Feb. 20, 2013) ...................................... 16
American Heritage Life Ins. Co. v. Orr,
294 F.3d 702 (5th Cir. 2002) ............................... 22
American Int’l Grp., Inc. v. Siemens
Building Techs., Inc., 881 So. 2d 7
(Fla. Ct. App. 2004) ............................................. 22
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ............................... 1, 2, 11, 28
Bixler v. Next Fin. Grp., Inc.,
858 F. Supp. 2d 1136 (D. Mont. 2012) ................ 16
Brown v. Cassens Transp. Co.,
546 F.3d 347 (6th Cir. 2008) ............................... 24
Buckeye Check Cashing, Inc. v.
Cardegna, 546 U.S. 440 (2006) ............................. 2
C&L Enter., Inc. v. Citizen Band
Potawatomi Indian Tribe of Okla.,
532 U.S. 411 (2001) ............................................... 2
Citizens Bank v. Alafabco, Inc.,
539 U.S. 52 (2003) ................................................. 2

vi
TABLE OF AUTHORITIES – Continued
Page
Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213 (1985) ............................................... 1
Department of Treasury v. Fabe,
508 U.S. 491 (1993) ....................................... 14, 26
DiMercurio v. Sphere Drake Ins., PLC,
202 F.3d 71 (1st Cir. 2000) .................................. 26
DirectTV v. Imburgia,
136 S. Ct. 463 (2015) ............................................. 2
Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681 (1996) ............................................... 2
Epic Sys., Corp. v. Lewis,
138 S. Ct. 1612 (2018) ........................................... 2
Gilmer v. Interstate/Johnson Lane
Corp., 500 U.S. 20 (1991) .................................... 29
Green Tree Fin. Corp. v. Bazzle,
539 U.S. 444 (2003) ............................................... 2
Greene v. United States,
440 F.3d 1304 (Fed. Cir. 2006)............................ 24
Hamilton Life Ins. Co. v. Republic Nat’l
Life Ins. Co., 408 F.2d 606
(2d Cir. 1969) ....................................................... 18
Hammer v. Dep’t of Health and Human
Servs., 905 F.3d 517 (7th Cir. 2018) ................... 27
Hart v. Orion Ins. Co.,
453 F.2d 1358 (10th Cir. 1971) ........................... 18
Henry Schein, Inc. v. Archer and White
Sales, Inc., 139 S. Ct. 524 (2019) ........................ 29

vii
TABLE OF AUTHORITIES – Continued
Page
Humana Inc. v. Forsyth,
525 U.S. 299 (1999) ...................................... passim
International Ins. Co. v. Duryee,
96 F.3d 837 (6th Cir. 1996) ........................... 14, 27
Kentucky Ass’n of Health Plans v.
Miller, 538 U.S. 329 (2003) ................................. 25
Kindred Nursing Ctr. Ltd. P’ship v.
Clark, 137 S. Ct. 1421 (2017) .......................... 2, 21
Kong v. Allied Prof’l Ins. Co.,
750 F.3d 1295 (11th Cir. 2014) ........................... 17
KPMG LLP v. Cocchi,
565 U.S. 18 (2011) ................................................. 2
Little v. Allstate Ins. Co.,
705 A.2d 538 (Vt. 1997) ........................... 14, 15, 24
Marmet Health Care Ctr., Inc. v. Brown,
565 U.S. 530 (2012) ........................................... 1, 2
Mastrobuono v. Shearson Lehman
Hutton, Inc., 514 U.S. 52 (1995)...................... 1, 26
Miller v. Nat’l Fidelity Life Ins. Co.,
588 F.2d 185 (5th Cir. 1979) ............................... 21
Milliman, Inc. v. Roof,
353 F. Supp. 3d 588 (E.D. Ky. 2018)............. 14, 26
Minnieland Private Day School, Inc. v.
Applied Underwriters Captive Risk
Assurance Co., 867 F. 3d 449
(4th Cir. 2017).......................................... 18, 19, 20

viii
TABLE OF AUTHORITIES – Continued
Page
Monarch Consulting, Inc. v. Nat’l Union
Fire Ins. Co., 47 N.E.3d 463
(N.Y. 2016) ..................................................... 23, 24
Munich Am. Reinsurance Co. v.
Crawford, 141 F.3d 585
(5th Cir. 1998)...................................................... 14
Mutual Reinsurance Bureau v. Great
Plains Mutual Ins. Co.,
969 F.2d 931 (10th Cir. 1992) ............................. 25
Nitro-Lift Techs., L.L.C. v. Howard,
568 U.S. 17 (2012) ................................................. 2
Oklahoma Oncology & Hematology P.C.
v. U.S. Oncology, Inc., 160 P.3d 936
(Okla. 2007) ......................................................... 17
Ommen v. Milliman, Inc.,
941 N.W.2d 310 (Iowa 2020) ......................... 23, 26
Perry v. Thomas,
482 U.S. 483 (1987) ............................................... 1
Preston v. Ferrer,
552 U.S. 346 (2008) ..................................... 1, 2, 28
Saunders v. Farmers Ins. Exch.,
537 F.3d 961 (8th Cir. 2008) ............................... 24
Southern United Fire Ins. Co. v.
Howard, 775 So. 2d 156 (Ala. 2000) ................... 18
Southland Corp. v. Keating,
465 U.S. 1 (1984) ............................................. 1, 29

ix
TABLE OF AUTHORITIES – Continued
Page
Standard Security Life Ins. Co. v. West,
267 F.3d 821 (8th Cir. 2001) ............................... 25
CONSTITUTION AND STATUTES
U.S. Const. Art. VI, Cl. 2 ............................................ 5
9 U.S.C. 2 ................................................................ 1, 5
15 U.S.C. 1012(b) ............................................... passim
28 U.S.C. 1257(a) ........................................................ 5
Ariz. Rev. Stat. § 12-3003(B)(2) ................................ 30
Ark. Code Ann. § 16-108-233(b)(3) ........................... 30
Ga. Code Ann. § 9-9-2(b)(3) ...................................... 30
Haw. Rev. Stat. § 431:10-221(a)(2) ........................... 30
Iowa Code § 507C.21(1)(l) ......................................... 23
Ky. Rev. Stat. Ann. § 417.050................................... 30
La. Rev. Stat. Ann. § 22-868 ..................................... 30
Mass. Gen. Laws ch. 175, § 22 ................................. 31
Md. Code Ann., Cts. & Jud. Proc. § 3206.1 ..................................................................... 31
Me. Rev. Stat. Ann. tit. 24-A, § 2433 ....................... 31
Mo. Rev. Stat. § 435.350 ........................................... 31
Mont. Code Ann. § 27-5-114(2)(c) ............................. 31
Neb. Rev. Stat. § 25-2602(f)(4) ................................. 31
Okla. Stat. Ann. tit. 12, §§ 1851-1880 ........................ 9

x
TABLE OF AUTHORITIES – Continued
Page
Okla. Stat. Ann. tit. 12, § 1855(D) .................... passim
Okla. Stat. Ann. tit. 15, §§ 15-141.1 et
seq. ......................................................................... 7
Okla. Stat. Ann. tit. 15, § 15-141.2(17)(f)................. 11
Okla. Stat. Ann. tit. 36, §§ 6752 et seq. ...................... 7
Okla. Stat. Ann. tit. 36, § 6752(9) ............................ 11
R.I. Gen. Laws § 10-3-2 ............................................ 31
S.C. Code Ann. § 15-48-10(b)(4) ............................... 31
S.D. Codified Laws § 21-25A-3 ................................. 31
Va. Code Ann. § 38.2-312.................................... 19, 31
Vt. Stat. Ann. tit. 12, § 5653 ............................... 15, 31
Wash. Rev. Code § 48.18.200 .................................... 31
OTHER AUTHORITIES
Benedict M. Lenhart, et al., Arbitration
of Coverage Disputes, 1 New
Appleman on Insurance Law Library
Edition § 7.03 (2020) ........................................... 29
Black’s Law Dictionary (11th ed. 2019) ................... 14
David M. Adlerstein, et al., 2 Successful
Partnering Between Inside and
Outside Counsel § 25A:70
(Apr. 2020 supp.) ................................................. 28

xi
TABLE OF AUTHORITIES – Continued
Page
Insurance Information Institute, 2019
International Insurance Fact Book
(2019), available at
https://www.iii.org/sites/default/files/d
ocs/pdf/insurance_factbook_2019.pdf.................. 28
Revised Uniform Arbitration Act (Unif.
Law Comm’n 2000) .......................................... 9, 17
Steven Plitt, et al., 15 Couch on
Insurance § 209:1 (3d ed. June 2020
supp.) .................................................................... 28

PETITION FOR A WRIT OF CERTIORARI
Old Republic Home Protection Company, Inc.
(ORHP) respectfully petitions for a writ of certiorari
to review the decision of the Supreme Court of
Oklahoma in this case.
INTRODUCTION
Congress enacted the Federal Arbitration Act
(FAA) in 1925 “to overrule the judiciary’s
longstanding refusal to enforce agreements to
arbitrate.” Dean Witter Reynolds, Inc. v. Byrd, 470
U.S. 213, 219-20 (1985). The FAA declares a “written
provision in * * * a contract evidencing a transaction
involving commerce to settle by arbitration a
controversy thereafter arising out of such contract or
transaction * * * shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
equity for the revocation of any contract.” 9 U.S.C. 2.
Consistent with that well-recognized federal
policy, this Court, time and again, has reiterated that
“[w]hen state law prohibits outright the arbitration of
a particular type of claim, the analysis is
straightforward: The conflicting rule is displaced by
the FAA.” AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 341 (2011).1 This Court also has repeatedly
See also Marmet Health Care Ctr., Inc. v. Brown, 565 U.S. 530,
533 (2012) (preemption of state law prohibiting arbitration of
certain claims against nursing homes); Preston v. Ferrer, 552
U.S. 346, 356 (2008) (preemption of state law providing state
commissioner jurisdiction to decide issues subject to arbitration);
Mastrobuono v. Shearson Lehman Hutton, Inc., 514 U.S. 52, 56
(1995) (preemption of state law requiring punitive damages
claims to be resolved by judicial proceeding); Perry v. Thomas,
482 U.S. 483, 491 (1987) (preemption of state law requiring a
judicial forum for wage disputes); Southland Corp. v. Keating,
1

2
rejected attempts to construe other federal statutes to
render arbitration agreements unenforceable despite
the FAA. See Epic Sys., 138 S. Ct. at 1627 (collecting
cases).
Courts, like the Supreme Court of Oklahoma here,
nevertheless continue to invent “new devices and
formulas” evincing “antagonism toward arbitration.”
Id. at 1623; see also Concepcion, 563 U.S. at 342. This
Court has not hesitated to grant petitions for writs of
certiorari to review state court decisions that
undermine the FAA.2

465 U.S. 1, 16 (1984) (“In creating a substantive rule [in favor of
arbitration] applicable in state as well as federal courts,
Congress intended to foreclose state legislative attempts to
undercut the enforceability of arbitration agreements.”).
See, e.g., Kindred Nursing Ctr. Ltd. P’ship v. Clark, 137 S. Ct.
1421 (2017) (reviewing decision of the Kentucky Supreme Court);
DirectTV v. Imburgia, 136 S. Ct. 463 (2015) (reviewing decision
of the California Court of Appeal); Nitro-Lift Techs., L.L.C. v.
Howard, 568 U.S. 17 (2012) (per curiam) (reviewing decision of
the Supreme Court of Oklahoma); Marmet Health Care Ctr., Inc.
v. Brown, 565 U.S. 530 (2012) (reviewing decision of the West
Virginia Supreme Court of Appeals); KPMG LLP v. Cocchi, 565
U.S. 18 (2011) (per curiam) (reviewing decision of the Florida
District Court of Appeal); Preston v. Ferrer, 552 U.S. 346 (2008)
(reviewing decision of the California Court of Appeal); Buckeye
Check Cashing, Inc. v. Cardegna, 546 U.S. 440 (2006) (reviewing
decision of the Florida Supreme Court); Citizens Bank v.
Alafabco, Inc., 539 U.S. 52 (2003) (per curiam) (reviewing
decision of the Alabama Supreme Court); Green Tree Fin. Corp.
v. Bazzle, 539 U.S. 444 (2003) (reviewing decision of the Supreme
Court of South Carolina); C&L Enter., Inc. v. Citizen Band
Potawatomi Indian Tribe of Okla., 532 U.S. 411 (2001)
(reviewing decision of the Court of Civil Appeals of Oklahoma);
Doctor’s Assocs., Inc. v. Casarotto, 517 U.S. 681 (1996) (reviewing
decision of the Montana Supreme Court); Allied-Bruce Terminix
2

3
The Court should grant this Petition for the
following reasons:
First, in order to find reverse preemption under the
McCarran–Ferguson Act, the Supreme Court of
Oklahoma interpreted a generally applicable state
arbitration statute to be a law “enacted * * * for the
purpose of regulating the business of insurance”
under 15 U.S.C. 1012(b). It did so despite the fact that
the Oklahoma arbitration statute expressly states
that it “shall not apply to * * * contracts which
reference insurance[.]” Okla. Stat. Ann. tit. 12,
§ 1855(D). The conclusion that the Oklahoma statute
“regulat[es] the business of insurance” is directly at
odds with this Court’s precedents regarding the
McCarran–Ferguson Act, as well as decisions by other
state courts of last resort and federal courts of
appeals—some interpreting virtually identical
statutory provisions. Clarifying this Court’s earlier
rulings and resolving this split in authority involves
an important question of federal law that is deserving
of this Court’s review.
Second, the decision below is at odds with this
Court’s precedent. The McCarran–Ferguson Act only
permits reverse preemption when a federal law
“invalidate[s], impair[s], or supersede[s]” a state law
enacted to “regulat[e] the business of insurance.” 15
U.S.C. 1012(b). This Court has made clear that, where
a State has “chosen not to regulate” a particular aspect
of the business of insurance, federal laws that do
regulate in that domain do not “impair” state law.
Humana Inc. v. Forsyth, 525 U.S. 299, 309 (1999)
Cos. v. Dobson, 513 U.S. 265 (1995) (reviewing decision of the
Alabama Supreme Court).

4
(emphasis in original) (citation omitted). Because the
Oklahoma law does not regulate in this area, but
rather carves out insurance contracts from the
general state arbitration act—as do the arbitration
acts of many other States—the decision below is at
odds with this Court’s McCarran–Ferguson Act
precedent. Nonetheless, there is a split in authority to
be resolved as to what it means to “impair” state
insurance law in the arbitration context. That split
has, on the one hand, the Supreme Court of Oklahoma
simply assuming reverse preemption applies and
other courts similarly ignoring the high-bar for
McCarran–Ferguson
Act
“impairment”
when
addressing arbitration and, on the other hand, other
courts finding no impairment at all.
Finally, the Court should grant this Petition
because it presents important issues of federal law
that are likely to reoccur. Arbitration agreements are
common throughout the insurance industry. There
are 18 States other than Oklahoma that have enacted
either similar provisions carving out insurance
contracts from their general state arbitration acts or
statutes that purport to prohibit outright arbitration
of insurance disputes. Guidance from this Court on
these important federal questions can help inform
conduct in the industry and avoid inappropriate
forum shopping.
OPINIONS BELOW
The opinion of the Supreme Court of Oklahoma,
Pet. App. 1a-24a, is reported at 467 P.3d 680 (Okla.
2020). The opinion of the Court of Civil Appeals of
Oklahoma, Pet. App. 25a-53a, is unreported. The
District Court of Cleveland County, Oklahoma’s

5
summary order denying ORHP’s motion to compel
arbitration, Pet. App. 54a, is unreported.
STATEMENT OF JURISDICTION
The Supreme Court of Oklahoma issued its opinion
on May 27, 2020. Pet. App. 1a. ORHP invokes this
Court’s jurisdiction under 28 U.S.C. 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves the Supremacy Clause of the
United States Constitution, the FAA, the McCarran–
Ferguson Act, and the Oklahoma Arbitration Act.
The Supremacy Clause, U.S. Const. Art. VI, Cl. 2,
provides in pertinent part:
This Constitution, and the Laws of the
United States which shall be made in
Pursuance thereof * * * shall be the
supreme Law of the Land; and the Judges
in every State shall be bound thereby, any
Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.
Section 2 of the FAA, 9 U.S.C. 2, provides in
pertinent part:
A written provision in any maritime
transaction or contract evidencing a
transaction involving commerce to settle
by arbitration a controversy thereafter
arising out of such contract or transaction,
or the refusal to perform the whole or any
part thereof, or an agreement in writing to
submit to arbitration an existing
controversy arising out of such a contract,

6
transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon
grounds as exist at law or in equity for the
revocation of any contract.
The McCarran–Ferguson Act, 15 U.S.C. 1012(b),
provides in pertinent part:
No Act of Congress shall be construed to
invalidate, impair, or supersede any law
enacted by any State for the purpose of
regulating the business of insurance, or
which imposes a fee or tax upon such
business, unless such Act specifically
relates to the business of insurance[.]
The Oklahoma Arbitration Act, Okla. Stat. Ann.
tit. 12, § 1855(D), provides in pertinent part:
The [Oklahoma] Arbitration Act shall not
apply to collective bargaining agreements
and contracts which reference insurance,
except for those contracts between
insurance companies.
STATEMENT OF THE CASE
Factual Background
ORHP sells home service contracts covering
residential properties, often in connection with real
estate transactions. Under the terms of its contracts,
ORHP arranges and pays for the repair or
replacement of certain covered appliances and
fixtures (e.g., refrigerators, HVAC equipment,
oven/ranges, and washer dryers).
Respondent Donna Sparks originally purchased a
home service contract from ORHP in 2009 and

7
subsequently renewed it for consecutive one-year
terms, including the final term beginning September
15, 2015. The “Declaration of Coverage” issued by
ORHP to Ms. Sparks is included at Pet. App. 63a-65a.
This Declaration of Coverage incorporated the terms,
conditions, and limitations detailed in the
accompanying “Oklahoma Home Warranty” 3 provided
by ORHP to Ms. Sparks, which is attached at Pet.
App. 66a-102a.
The one-page Declaration of Coverage also
informed Ms. Sparks that “this Contract will be
subject to the Arbitration Provision outlined on Page
9” of the service contract. Pet. App. 64a. It explained
that Ms. Sparks would be “giving up certain rights to
have a dispute settled in court” and that if she did “not
want to agree to this provision, [she could] cancel [her]
Plan by contacting [ORHP] within 30 days of purchase
of [her] Home Protection Plan.” Pet. App. 64a-65a.
Page 9 of the contract sets out—in a black-outlined
text box on the right side of the document—the
following arbitration provision:
Arbitration: By entering into this
Agreement the parties agree and
acknowledge that all disputes they have
that involve us, or arise out of actions that
we did or did not take, shall be arbitrated
While Ms. Sparks’ service contract is entitled an “Oklahoma
Home Warranty” in accordance with the lay terminology within
the industry, the service contracts issued by ORHP in Oklahoma
are regulated by two separate statutory schemes, the Oklahoma
Service Warranty Act, Okla. Stat. Ann. tit. 15, §§ 15-141.1 et seq.,
and the Oklahoma Home Service Contract Act, Okla. Stat. Ann.
tit. 36, §§ 6752 et seq.
3

8
as set forth herein as long as the claim is
in excess of the applicable small claims
court jurisdictional limit. The parties
further agree that they are giving up the
right to a jury trial, and the right to
participate in any class action, private
attorney general action, or other
representative or consolidated action,
including any class arbitration or
consolidated arbitration proceeding.
***
The parties expressly agree that this
Agreement and this arbitration
provision
involve
and
concern
interstate
commerce
and
are
governed by the provisions of the
Federal Arbitration Act (9 U.S.C. § 1,
et seq.) to the exclusion of any
different or inconsistent state or local
law, ordinance or judicial rule.
Pet. App. 99a-100a (italicized emphasis in original
and bolded emphasis added).
The Sparks assert that faulty repairs to their air
conditioning system caused it to malfunction in March
2016, resulting in damage to their home. They allege
the independent contractors dispatched by ORHP
repeatedly failed to repair their air conditioning
system to their satisfaction, that ORHP engaged in a
pattern and practice of hiring unqualified
independent contractors to perform repair work, and
that ORHP is liable for breach of contract, negligence,
and “bad faith,” such that punitive damages are
warranted.

9
The Revised Uniform Arbitration Act
and Oklahoma’s Enactment
Central to the proceedings below is the fact that
Oklahoma, like many States, has enacted a general
state arbitration act enforcing agreements to arbitrate
disputes and establishing various rules for how
arbitrations shall be conducted if state law applies.
The Oklahoma Arbitration Act was enacted in 2006
and is virtually identical to the Uniform Law
Commission’s Revised Uniform Arbitration Act, which
was published in 2000. Compare Okla. Stat. Ann. tit.
12, §§ 1851-1880 with Revised Uniform Arbitration
Act §§ 1-33.
Section 1855(D) contains one of the few provisions
of the Oklahoma Arbitration Act that deviates from
the Revised Uniform Arbitration Act. Compare Okla.
Stat. Ann. tit. 12, § 1855(D) with Revised Uniform
Arbitration Act § 4. Oklahoma’s statute provides that
it “shall not apply to collective bargaining agreements
and contracts which reference insurance, except for
those contracts between insurance companies.” Okla.
Stat. Ann. tit. 12, § 1855(D). At least 18 other States
have enacted statutory provisions that either exempt
insurance contracts from the scope of their general
state arbitration acts or purport to prohibit outright
insurance disputes from being arbitrated. See p. 30
n.10, infra (compiling state statutes).
Proceedings Below
In 2016, the Sparks filed this lawsuit in the
District Court of Cleveland County, Oklahoma. Based
on the parties’ agreement and the FAA, ORHP
responded by moving to compel arbitration and stay
litigation. Pet. App. 61a (“[A]s provided by the FAA, a

10
stay of these proceedings is appropriate until the
arbitration has been conducted as the parties
agreed.”). The trial court entered a summary order
denying ORHP’s motion, without explaining its
reasons. Pet. App. 54a.
A divided three-judge panel of the Court of Civil
Appeals of Oklahoma affirmed, ruling that the
Oklahoma Arbitration Act rendered the arbitration
provision in the parties’ contract unenforceable. Pet.
App. 41a. The majority, “based on an interpretation of
the McCarran–Ferguson Act,” rejected ORHP’s
argument that the Oklahoma Arbitration Act is
preempted by the FAA. Pet. App. 28a-29a. Notably,
the dissenting judge explained that reverse
preemption was inappropriate because the FAA does
not impair any Oklahoma law “regulating the
business of insurance” within the meaning of the
McCarran–Ferguson Act. Pet. App. 45a-53a.
The Supreme Court of Oklahoma granted a
petition for certiorari to review the decision. Pet. App.
3a ¶1. On May 27, 2020, the court issued its decision
without any further briefing or oral argument. Pet.
App. 1a-2a. It began by claiming that the McCarran–
Ferguson Act “bestows upon states absolute authority
over matters relating to the regulation of insurance.”
Pet. App. 11a-12a ¶15 (emphasis in original); but see
Humana, 525 U.S. at 308 (“We reject any suggestion
that Congress intended to cede the field of insurance
regulation to the States, saving only instances in
which Congress expressly orders otherwise.”). Despite
acknowledging the controlling legal questions before
it, the Supreme Court of Oklahoma failed to conduct a
substantive analysis of the interaction between the
FAA, the Oklahoma Arbitration Act, and the

11
McCarran–Ferguson Act. Instead, the court
denigrated the parties’ agreement, characterizing it
as a forced arbitration clause because the provision
was part of a pre-printed contract that the court
assumed was drafted by ORHP and not separately
negotiated. Pet. App. 3a ¶¶1-2, 18a ¶29.4
In reaching its conclusion, the Supreme Court of
Oklahoma did not engage in the type of analysis this
Court has required to determine if McCarran–
Ferguson Act reverse preemption applies. The court
did not analyze whether the Oklahoma legislature
enacted the Oklahoma Arbitration Act for the purpose
of regulating the business of insurance nor whether
the FAA operates “to invalidate, impair, or supersede”
any part of Oklahoma law. Instead, it simply
concluded “that state laws involving the business of
insurance take precedence over the competing federal
law, FAA[,] favoring arbitration.” Pet. App. 14a ¶21.5
Even though it acknowledged that the Oklahoma
Arbitration Act “exempts ‘contracts which reference
insurance,’” the court apparently assumed this meant
As this Court has recognized, under the FAA, the mere fact that
an arbitration clause is contained in a form contract does not
render it unenforceable. See Concepcion, 563 U.S. at 346-47
(noting that “the times in which consumer contracts were
anything other than adhesive are long past”).
4

In determining that Ms. Sparks purchased a contract “which
reference[s] insurance” for purposes of the Oklahoma Arbitration
Act, Pet. App. 19a-22a, the Supreme Court of Oklahoma also cast
aside the Oklahoma legislature’s declaration that home service
contracts and warranty contracts “are not insurance in
[Oklahoma] or otherwise regulated under the [Oklahoma]
Insurance Code.” Okla. Stat. Ann. tit. 15 § 15-141.2(17)(f); Okla.
Stat. Ann. tit. 36, § 6752(9).
5

12
it invalidated arbitration agreements in such
contracts and that “the state law must prevail over
the” FAA. Pet. App. 15a ¶23 (emphasis added). For
this latter proposition, the court cited cases where
“courts have concluded that state laws invalidating
arbitration provisions in insurance contracts reverse
preempt the FAA.” Pet. App. 15a ¶22 (emphasis
added).
After recognizing that the Oklahoma Arbitration
Act does not apply to arbitration provisions in
contracts referencing insurance, and using that as a
basis for reverse preemption of the FAA, the court
went on to support its conclusion with its common law
precedent singling out arbitration agreements for
unfavorable treatment:
[F]or more than half a century, this Court
has held that an insurance company’s
insertion of forced arbitration in an
insurance contract deprived the insured of
a judicial examination and determination
of the issues and such policy provision was
contrary
to
public
policy
and
unenforceable.
Pet. App. 16a ¶24 (citing Boughton v. Farmers
Ins. Exch., 354 P.2d 1085, 1089 (Okla. 1960)).
Nowhere did the Supreme Court of Oklahoma
acknowledge that common law rulings by courts do
not justify reverse preemption under the McCarran–
Ferguson Act. See 15 U.S.C. 1012(b) (applying only to
laws “enacted by any State”) (emphasis added).

13
REASONS FOR GRANTING THE WRIT
As this Court has explained, the McCarran–
Ferguson Act “precludes application of a federal
statute in the face of state law ‘enacted * * * for the
purpose of regulating the business of insurance,’ if the
federal measure does not ‘specifically relat[e] to the
business of insurance,’ and would ‘invalidate, impair,
or supersede’ the State’s law.” Humana, 525 U.S. at
307 (citing Department of Treasury v. Fabe, 508 U.S.
491, 501 (1993)). While the FAA does not relate
specifically to the business of insurance, review by
this Court is justified to address the other two
requirements of McCarran–Ferguson Act reverse
preemption in the context of arbitration agreements.
I.

REVIEW IS WARRANTED BECAUSE THE DECISION
BELOW REFLECTS A SPLIT IN AUTHORITY ON
ANALYZING WHETHER, UNDER FEDERAL LAW,
STATE ARBITRATION STATUTES REGULATE THE
BUSINESS OF INSURANCE.

The Supreme Court of Oklahoma necessarily
concluded that the Oklahoma Arbitration Act was
enacted for the purpose of “regulating the business of
insurance,” 15 U.S.C. 1012(b), even though the statute
clearly states by its own terms that it “shall not apply
to * * * contracts which reference insurance[.]” Okla.
Stat. Ann. tit. 12, § 1855(D). Nothing in the text of the
Oklahoma Arbitration Act purports to render
arbitration provisions in insurance contracts void,
revocable, or unenforceable, or otherwise expresses
any legislative attempt to regulate the insurance
industry or reverse preempt the FAA. Indeed, the
Oklahoma Arbitration Act does just the opposite,
declining to regulate arbitration in “contracts which

14
reference insurance” by excluding such contracts from
its scope. Okla. Stat. Ann. tit. 12, § 1855(D); see also
Regulate, Black’s Law Dictionary (11th ed. 2019) (“To
control (an activity or process) esp. through the
implementation of rules.”).
When determining whether a law was enacted for
the purpose of regulating the business of insurance,
this Court has explained that the law must “possess
the ‘end, intention, or aim’ of adjusting, managing or
controlling the business of insurance.” Department of
the Treasury v. Fabe, 508 U.S. 491, 505 (1993)
(quoting Black’s Law Dictionary 1236, 1286 (6th ed.
1990)). As several courts have recognized, specific
application of this test post-Fabe has proven difficult.6
The confusion over the applicable standard has
predictably led to divergent outcomes.
a. Analyzing identical McCarran–Ferguson
reverse preemption arguments considered by the
Supreme Court of Oklahoma here, the Vermont
Supreme Court rejected reverse preemption in Little
v. Allstate Insurance Company, 705 A.2d 538 (Vt.
1997). Little involved a state arbitration statute
nearly identical to Oklahoma’s. Specifically,
Vermont’s arbitration law provides that it “does not
apply to labor interest arbitration, nor to arbitration

6 See, e.g., Munich Am. Reinsurance Co. v. Crawford, 141 F.3d
585, 592 (5th Cir. 1998) (“Fabe’s holding in this respect is simply
unclear.”); International Ins. Co. v. Duryee, 96 F.3d 837, 839 (6th
Cir. 1996) (“It is not clear from the majority opinion in Fabe how
far its holding extends.”); Milliman, Inc. v. Roof, 353 F. Supp. 3d
588, 601 (E.D. Ky. 2018) (“[D]etermining whether a law
‘regulates the business of insurance’ has proved difficult.”).

15
agreements contained in a contract of insurance.” Vt.
Stat. Ann. tit. 12, § 5653.
The Vermont Supreme Court held that the
Vermont Arbitration Act’s exclusion of insurance
contracts from its scope meant that it was not a law
enacted for the purpose of regulating the business of
insurance within the meaning of the McCarran–
Ferguson Act. Little, 705 A.2d at 541. In reaching that
conclusion,
the
Vermont
Supreme
Court
distinguished between state arbitration acts that
exempt arbitration agreements in insurance contracts
from those that affirmatively invalidate arbitration
provisions:
All the insurance contract exclusion from
the [Vermont Arbitration Act] has done is
to allow insurance arbitration agreements
to continue to be governed by the common
law. Thus, the [Vermont Arbitration Act]
regulates those arbitration agreements
subject to its terms. Those that are
excluded are not regulated by the
[Vermont Arbitration Act].
We emphasize that the Vermont
Legislature has not specifically acted to
make insurance arbitration agreements
revocable. * * * Instead, the Legislature
has chosen not to regulate arbitration
agreements at all.
Id. (emphasis in original, internal citation
omitted).
Based on this conclusion, the Vermont Supreme
Court held that the FAA preempted the state statute
and “the agreement to arbitrate is irrevocable.” Id. at

16
539, 541; see also American Guar. & Liab. Ins. Co. v.
Abram Law Grp., LLC, No. 1:11-cv-3483-SCJ, 2013
WL 12099359 (N.D. Ga. Feb. 20, 2013) (following the
Vermont Supreme Court’s decision in Little); Bixler v.
Next Fin. Grp., Inc., 858 F. Supp. 2d 1136, 1146 & n.5
(D. Mont. 2012) (rejecting McCarran–Ferguson Act
reverse preemption because it was “highly unlikely”
that an arbitration statute—which by its terms “does
not apply to * * * any agreement concerning or
relating to insurance policies or annuity contracts”—
“was enacted for the purpose of regulating the
business of insurance”) (citing Northwestern Corp. v.
Nat’l Union Fire Ins. Co., 321 B.R. 120 (D. Del. Bankr.
2005)).
b. Here however, the Supreme Court of Oklahoma
reached the exact opposite conclusion when presented
with a virtually indistinguishable state statute. Like
the Vermont Arbitration Act, the Oklahoma
Arbitration Act does not apply to “contracts which
reference insurance.” Okla. Stat. Ann. tit. 12,
§ 1855(D). Despite acknowledging this exemption, the
Supreme Court of Oklahoma concluded that the
statute “is a state law regulating the business of
insurance.” Pet. App. 15a ¶23. It failed to provide any
explanation for its conclusion.
Although the Supreme Court of Oklahoma
purported to consider whether the contract before it is
one “which reference[s] insurance” notwithstanding
that the Oklahoma legislature had determined the
contracts were not insurance (see p. 11 n.5, supra),
that is not the dispositive question under the
McCarran–Ferguson Act, which asks whether the
state law was “enacted * * * for the purpose of
regulating the business of insurance.” 15 U.S.C.

17
1012(b). Without proper analysis, the court simply
assumed that the Oklahoma Arbitration Act was
somehow enacted to regulate insurance and therefore
qualified for reverse preemption under the
McCarran–Ferguson Act.
Neither the Revised Uniform Arbitration Act nor
the Oklahoma Arbitration Act regulate the business
of insurance. Instead, these laws provide default
arbitration rules in the event that the parties’
arbitration agreement does not specifically spell out
particular procedures, but § 1855(D) simply declined
to provide those procedures for “contracts which
reference insurance.” Moreover, the drafters of the
Revised Uniform Arbitration Act expressly recognized
that the “emphatically pro-arbitration provision
perspective [of Congress in the FAA] will be applicable
in both federal and state courts,” such that “state law
of any ilk, including adaptations of the [Revised
Uniform Arbitration Act], mooting or limiting
contractual agreements to arbitrate must yield to the
pro-arbitration policy voiced in Sections 2, 3, and 4 of
the FAA.” Revised Uniform Arbitration Act Preface at
2 (Unif. Law Comm’n 2000); see also Oklahoma
Oncology & Hematology P.C. v. U.S. Oncology, Inc.,
160 P.3d 936, 947 (Okla. 2007) (“Both the FAA and the
[Oklahoma Arbitration Act] require the courts to
honor private parties’ agreements to settle their
‘controversies’ in the arbitral forum.”).
c. Contrary to the approach taken by the Supreme
Court of Oklahoma, federal courts of appeals have
explained that state arbitration laws, which apply
generally to all contracts, do not regulate the business
of insurance. See, e.g., Kong v. Allied Prof’l Ins. Co.,
750 F.3d 1295, 1304 (11th Cir. 2014) (state arbitration

18
statute that applied to “all arbitration agreements,
not just those found in insurance contracts” did not
regulate the business of insurance under the
McCarran–Ferguson Act); Hart v. Orion Ins. Co., 453
F.2d 1358, 1360 (10th Cir. 1971) (holding that state
laws of “general application pertaining to the method
of handling contract disputes” do not “regulate the
business of insurance” for McCarran–Ferguson Act
purposes); Hamilton Life Ins. Co. v. Republic Nat’l
Life Ins. Co., 408 F.2d 606, 611 (2d Cir. 1969) (“It is
quite plain that arbitration statutes * * * are not
statutes regulating the business of insurance, but
statutes regulating the method of handling disputes
generally.”). And other state courts of last resort have
explained that where a general arbitration act is
incorporated by reference into the state insurance
code, this act of incorporation does not transform the
state arbitration act into a law regulating “insurance
so as to reverse-preempt the FAA under the provisions
of the McCarran–Ferguson Act.” Southern United Fire
Ins. Co. v. Howard, 775 So. 2d 156, 164 (Ala. 2000).
d. There are other federal and state courts that
have concluded that arbitration statutes or insurance
statutes that specifically address the arbitrability of
insurance related disputes are state laws enacted for
the purpose of regulating insurance. The Supreme
Court of Oklahoma relied on several of these
decisions, although they are distinguishable and
apply at best a cursory analysis of the requisite
McCarran–Ferguson Act elements. Pet. App. 14a-15a
¶¶21-22.
The court heavily relied on Minnieland Private
Day School, Incorporated v. Applied Underwriters
Captive Risk Assurance Company, 867 F. 3d 449 (4th

19
Cir. 2017), but that reliance (misplaced as it was)7
only highlights why clarification from this Court is
necessary.
While the Supreme Court of Oklahoma described
the Virginia law at issue in Minnieland as similar to
§ 1855(D) of the Oklahoma Arbitration Act, Pet. App.
14a-15a ¶21, the texts of the two laws differ in
significant ways. The Virginia statute provides that
“[n]o insurance contract delivered or issued for
delivery” in Virginia “shall contain any condition,
stipulation or agreement * * * [d]epriving the courts
of [Virginia] of jurisdiction in actions against the
insurer,” and rendered any such provision “void.”
Minnieland, 867 F.3d at 455 (quoting Va. Code Ann.
§ 38.2-312).
By contrast, the Oklahoma Arbitration Act does
not include any language rendering arbitration
provisions in insurance contracts “void,” nor does it
mention contractual provisions that “deprive” state
courts of their “jurisdiction.” Oklahoma’s law merely
excludes “contracts which reference insurance” from
its scope. Okla. Stat. Ann. tit. 12, § 1855(D). Nowhere
does it purport to render such provisions void,
unenforceable, or revocable, or otherwise prohibit

Notably, despite the Supreme Court of Oklahoma’s suggestion
that Minnieland supported reverse preemption of the FAA, the
Fourth Circuit did not reach the issue, stressing in its opinion
that the appellant did not raise it. Id. at 454. As a result, the
court’s decision and holding focused exclusively on the
appellant’s argument that the delegation language of the parties’
contract required the arbitrator, rather than the district court, to
determine the arbitrability question. Id.
7

20
agreements that would “deprive” Oklahoma state
courts of their “jurisdiction.”
Similarly, the Supreme Court of Oklahoma relied
on American Bankers Insurance Company v. Inman,
436 F.3d 490 (5th Cir. 2006). Pet. App. 14a n.14, 15a
¶22. But that case, like Minnieland, involved a state
statute that expressly proscribed any “provision
requiring arbitration arising under” any uninsured
motorist endorsement and provided that “[t]he
insured shall not be restricted or prevented in any
manner from employing legal counsel or instituting or
prosecuting to judgment legal proceedings.” Inman,
436 F.3d at 493 (quoting Miss. Code Ann. § 83-11-109).
The text of the Oklahoma Arbitration Act lacks any
language similar or even close to that, and nothing in
it can plausibly be read to prohibit, invalidate, or void
arbitration agreements in insurance contracts.
***
Review by this Court can resolve the split in
authority and lack of clarity regarding whether (or
when) an arbitration statute that excludes from its
coverage arbitration of insurance related contracts is
a law “enacted * * * for the purpose of regulating the
business of insurance,” such that reverse preemption
under the McCarran–Ferguson Act is possible.

21
II. REVIEW IS WARRANTED BECAUSE THE DECISION
BELOW IS AT ODDS WITH THIS COURT’S
PRECEDENT AND IT IS INDICATIVE OF
INCONSISTENT DECISIONS FROM APPELLATE
COURTS ADDRESSING WHEN, IF EVER,
ENFORCEMENT OF THE FAA IMPAIRS A STATE
STATUTE ENACTED FOR THE PURPOSE OF
REGULATING INSURANCE.
a. A “key question” under the McCarran–Ferguson
Act is whether application of federal law would
“invalidate, impair, or supersede” a state law
regulating the business of insurance. Humana, 525
U.S. at 307-08.8 Indeed, this Court in Humana made
clear that reverse preemption under the McCarran–
Ferguson Act is inapplicable when federal law does
not impair a state law regulating the business of
insurance. Id. at 309.
This Court has not hesitated to grant review of a
state supreme court decision that is directly at odds
with this Court’s precedent interpreting federal law.
See, e.g., Kindred Nursing Ctr. Ltd. P’ship v. Clark,
137 S. Ct. 1421, 1427 (2017) (reviewing state supreme
court’s application of the FAA and explaining that
“the court did exactly what [AT&T Mobility LLC v.
Concepcion, 563 U.S. 333 (2011)] barred” by “singling
out [arbitration] contracts for disfavored treatment”).
And that is the case here.
8 See also Miller v. Nat’l Fidelity Life Ins. Co., 588 F.2d 185, 187
(5th Cir. 1979) (explaining that the “test under McCarran–
Ferguson is not whether a state has enacted statutes regulating
the business of insurance, but whether such state statutes will
be invalidated, impaired, or superseded by application of federal
law”).

22
The FAA does not “impair” any Oklahoma statute,
certainly not any that regulate insurance, and the
Supreme Court of Oklahoma’s contrary conclusion is
at odds with decisions of this Court and various
appellate courts.
Because the Oklahoma Arbitration Act does not
apply to “contracts which reference insurance[,]”
Okla. Stat. Ann. tit. 12, § 1855(D), application of the
FAA to such contracts does not impair the Oklahoma
Arbitration Act. As this Court has explained, where a
State has “chosen not to regulate” a particular aspect
of the business of insurance, federal laws that do
regulate in that domain do not “impair” state law.
Humana, 525 U.S. at 309 (emphasis in original).
Interpreting the meaning of “impair” as used in the
McCarran–Ferguson Act, this Court has explained:
When federal law does not directly conflict
with state regulation, and when
application of the federal law would not
frustrate any declared state policy or
interfere with a State’s administrative
regime, the McCarran–Ferguson Act does
not preclude its application.
Id. at 310.9
Though not expressly stating it, the Oklahoma
Supreme Court necessarily concluded that application

To qualify for McCarran–Ferguson Act reverse preemption, the
state law must be one “enacted” by the state legislature, 15
U.S.C. 1012, not merely a policy announced by a government
officials, see American Heritage Life Insurance Company v. Orr,
294 F.3d 702, 709 (5th Cir. 2002), or common law doctrine, see
American International Group, Incorporated v. Siemens Building
9

23
of the FAA would “impair” the Oklahoma Arbitration
Act in order to find McCarran–Ferguson Act reverse
preemption. But that conclusion is directly at odds
with the holding in Humana. A state arbitration
statute that simply provides that it does not apply to
an insurance contract cannot, by definition, be
impaired by a federal statute that permits arbitration
to be enforced in accordance with the parties’ express
written agreement, even if it is believed to resemble
insurance.
b. The decision below is also at odds with several
other appellate court decisions rejecting impairment
by the FAA under similar circumstances. Earlier this
year, the Iowa Supreme Court held that “[i]f there is
no conflict, McCarran–Ferguson’s reverse preemption
is inapplicable.” Ommen v. Milliman, Inc., 941
N.W.2d 310, 319 (Iowa 2020). In Ommen, the court
ruled that McCarran–Ferguson Act reverse
preemption did not apply because the FAA did not
impair the Iowa Liquidation Act. The Iowa statute
permitted a liquidator to “continue to prosecute and to
institute * * * any and all suits and other legal
proceedings.” Iowa Code § 507C.21(1)(l). It did not
preclude arbitration of such claims and did not conflict
with the FAA: “Requiring arbitration only alters the
forum in which the liquidator may pursue his common
law tort claims.” Ommen, 941 N.W.2d at 320.
New York’s highest court reached a similar
conclusion in Monarch Consulting, Incorporated v.
National Union Fire Insurance Company, 47 N.E.3d
463 (N.Y. 2016). The case addressed whether a
Technologies, Incorporated, 881 So. 2d 7, 11-12 (Fla. Ct. App.
2004).

24
California law requiring filing of certain insurance
related agreements with a state regulator would be
impaired by compelling arbitration under an
agreement that was not filed as required. Id. at 470.
The court held that the state law was not “impaired”
by application of the FAA because it did not purport
to “prohibit, limit, or regulate the use or form of
arbitration clauses in insurance contracts.” Id. at 471.
The same is undeniably true of the Oklahoma
Arbitration Act.
Clearly the rationale of the Vermont Supreme
Court in Little also supports a finding of nonimpairment, because it concluded that the state
statute simply did not apply to insurance contracts.
See Little, 705 A.2d at 541. It is axiomatic that a state
law that does not apply to insurance contracts cannot
be impaired by the application of the FAA to insurance
contracts.
Outside of the context of arbitration, lower courts
apply the Humana impairment test rigorously. Their
decisions stress the importance of carefully analyzing
the question based on the particular facts and legal
theories at issue. See, e.g., Brown v. Cassens Transp.
Co., 546 F.3d 347, 362 (6th Cir. 2008) (“Humana
treats the impairment consideration as an ‘as-applied’
challenge that looks to whether the federal statute
would impair the state statute in a particular
application.”); Saunders v. Farmers Ins. Exch., 537
F.3d 961, 967 (8th Cir. 2008) (“In applying Humana’s
fact-intensive interpretation of the word ‘impair,’ our
focus must be on the precise federal claims asserted.
Federal civil rights statutes are drafted broadly, so a
statute might ‘impair’ state insurance laws when
applied in some ways, but not in others.”); Greene v.

25
United States, 440 F.3d 1304, 1316 (Fed. Cir. 2006)
(“Given that the state statute is silent as to the
relative priority order of the federal government over
policyholders within the same class of claimants * * *
we can discern no ‘impairment’ here.”).
The Supreme Court of Oklahoma is not alone,
however, in ignoring the requirements of the Humana
test when it comes to arbitration agreements in the
insurance context. For example, in Standard Security
Life Insurance Company v. West, 267 F.3d 821 (8th
Cir. 2001) (per curiam), the Eighth Circuit did not
explain how Missouri’s state arbitration statute,
which exempts insurance contracts from its scope, is
invalidated, impaired, or superseded by application of
the FAA. Id. at 824. The Eighth Circuit reasoned that
the Missouri Arbitration Act’s exclusion of insurance
contracts regulated the business of insurance by
“spreading risk” in introducing the possibility of jury
verdicts. Id. at 823. This Court has subsequently held
that the prospect of punitive damages does not spread
a policyholder’s risk such as to “regulate” the
“business of insurance[.]” Kentucky Ass’n of Health
Plans v. Miller, 538 U.S. 329 (2003).
Likewise, in Mutual Reinsurance Bureau v. Great
Plains Mutual Insurance Company, 969 F.2d 931, 933
(10th Cir. 1992), the Tenth Circuit simply concluded,
without analysis, that the FAA impaired a Kansas
arbitration statute, which exempted insurance
contracts in similar fashion to the Oklahoma
Arbitration Act. The court just noted the exemption,
without explaining its impairment analysis further.
Id. at 933-34.

26
It is not clear that the FAA could ever “impair” a
state law regulating the business of insurance, given
that the FAA merely provides an alternative forum for
resolution of parties’ disputes and does not alter any
underlying substantive rights. In DiMercurio v.
Sphere Drake Insurance, PLC, 202 F.3d 71 (1st Cir.
2000), the First Circuit held that a Massachusetts
statute—nearly identical to the Virginia statute in
Minnieland discussed above, pp. 18-19—which
rendered “void” any “condition, stipulation, or
agreement [in an insurance policy] depriving the
courts of [Massachusetts] of jurisdiction of actions
against [the insurer,]” did not conflict with the FAA
because arbitration agreements do not actually
deprive courts of “jurisdiction.” Id. at 73-74, 77
(quoting Mass. Gen. Laws ch. 175, § 22); see also
Ommen, 941 N.W.2d at 320 (“Requiring arbitration
only alters the forum[.]”); Milliman, Inc. v. Roof, 353
F. Supp. 3d 588, 603 (E.D. Ky. 2018) (“Arbitration
does not deprive the [party] of any substantive rights,
only altering the forum in which the [party] may
pursue those rights.”); cf. Mastrobuono v. Shearson
Lehman Hutton, Inc., 514 U.S. 52 (1995) (harmonizing
choice-of-law provisions with arbitration provisions by
holding that the former control the “substantive
principles” while the latter control the authority of the
arbitrator). Enforcement of an arbitration provision
does not implicate any of the elements that this Court
has identified as the “business of insurance,” such as
spreading a policyholder’s risk or altering “an integral
part of the policy relationship[.]” Fabe, 508 U.S. at
497-98.
Courts recognize this lack of impairment when
confronting state statutes purporting to prohibit

27
insurers from removing lawsuits to federal court. See,
e.g., Hammer v. Dep’t of Health and Human Servs.,
905 F.3d 517, 534 (7th Cir. 2018) (“[I]t cannot fairly be
said that choice of forum between state and federal
court, within a state is ‘integral’ to the policy
relationship or the substantive concerns of the
McCarran–Ferguson Act.”); International Ins. Co. v.
Duryee, 96 F.3d 837, 840 (6th Cir. 1996) (holding that
a state statute prohibiting insurers from removing
lawsuits did not qualify for McCarran–Ferguson Act
reverse preemption because it was “not enacted so
much for the purpose of regulating the business of
insurance as for the parochial purpose of regulating a
foreign insurer’s choice of forum”). If state antiinsurance removal statutes are not “impaired” by
application of federal law for purposes of the
McCarran–Ferguson Act, there is no reason why state
anti-insurance arbitration statutes should be treated
differently.
Regardless, in this case it is clear that the FAA
does not impair any Oklahoma state law. The
Oklahoma Arbitration Act unambiguously states that
it does not apply to “contracts which reference
insurance.” Okla. Stat. Ann. tit. 12, § 1855(D). Under
this Court’s analysis in Humana, application of the
FAA to a contract which references insurance cannot
“impair” the Oklahoma Arbitration Act because the
Oklahoma legislature has “chosen not to regulate”
arbitration agreements in insurance contracts. 525
U.S. at 308 (emphasis in original).
The FAA and the McCarran–Ferguson Act
collectively require courts to honor contractual
arbitration arrangements unless application of the
FAA would impair a state law enacted for the purpose

28
of regulating the business of insurance. Here, given
the Oklahoma Arbitration Act is inapplicable by its
terms, the FAA does not impair it, and reverse
preemption is not proper under this Court’s decision
in Humana.
III. THE QUESTION PRESENTED IS RECURRING AND
IMPORTANT.
The insurance market in the United States is one
of the largest financial markets in the world. In 2017,
insurers in the United States underwrote
approximately $1.2 trillion in direct premiums,
accounting for just over 28 percent of the global
insurance industry. See Insurance Information
Institute, 2019 International Insurance Fact Book, at
4,
21
(2019),
available
at
https://www.iii.org/sites/default/files/docs/pdf/insuran
ce_factbook_2019.pdf (last accessed August 24, 2020).
To put that number in perspective, the insurance
industry contributed $602.7 billion (or 3.1 percent) to
the United States’ gross domestic product in 2017. Id.
at 24.
Arbitration is common throughout the insurance
industry, see Steven Plitt, et al., 15 Couch on
Insurance § 209:1 (3d ed. June 2020 supp.), as it
(1) allows parties to design their own “efficient,
streamlined, procedures tailored to the type of
dispute” at issue, Concepcion, 563 U.S. at 344;
(2) provides “expeditious results” compared to
traditional litigation, Preston, 552 U.S. at 357-59; and
(3) “reduc[es] the cost of resolving disputes[,]”
Concepcion, 563 U.S. at 345. Property insurance
policies frequently contain arbitration clauses. David
M. Adlerstein, et al., 2 Successful Partnering Between

29
Inside and Outside Counsel § 25A:70 (Apr. 2020
supp.); see also Benedict M. Lenhart, et al.,
Arbitration of Coverage Disputes, 1 New Appleman on
Insurance Law Library Edition § 7.03 (2020) (“In the
insurance context, it is more common for the insurer
and the insured to agree to arbitration in advance of a
dispute.”).
The frequency with which this Court grants
certiorari in similar cases involving the FAA
underscores the critical role commercial arbitration
occupies in the modern business world. Arbitration
agreements facilitate resolution of a multiplicity of
disputes amongst private litigants while avoiding the
costs associated with traditional litigation. A “timeconsuming sideshow” of litigation to determine
arbitrability is antithetical to the judicious resolution
of disputes expected by parties. Henry Schein, Inc. v.
Archer and White Sales, Inc., 139 S. Ct. 524, 531
(2019). Conflict among state and federal courts
concerning the implications of state arbitration
statutes will “encourage and reward forum shopping.”
Southland Corp. v. Keating, 465 U.S. 1, 15 (1984).
Plaintiffs may seek to capitalize on “judicial hostility
to arbitration agreements,” even where such
agreements unmistakably select the FAA as the
governing law. Gilmer v. Interstate/Johnson Lane
Corp., 500 U.S. 20, 24 (1991).
Thus, how the McCarran–Ferguson Act and FAA
“interact is an important legal question” implicating
arbitration agreements in interstate commerce
throughout the country. Robert H. Jerry II,
Explaining the Obvious: How Appraisals, Health
Care, and More Implement ADR in the Insurance

30
Field, 35 Alternatives to High Cost Litig. 115, 116
(Sept. 2017).
As shown above, there is widespread confusion
about how the basic elements of reverse preemption
under the McCarran–Ferguson Act should be
determined. There are inconsistent or cursory
analyses, directly conflicting decisions, and
unnecessary and improper hostility toward using
arbitration to resolve insurance related disputes.
Besides Oklahoma, at least 18 other States have
enacted their own statutes that either exempt
insurance contracts from the scope of their state
arbitration laws or purport to prohibit outright the
enforcement of arbitration agreements in insurance
related matters.10 Review by this Court is necessary
See Ariz. Rev. Stat. § 12-3003(B)(2) (providing that Arizona’s
arbitration act “shall not apply to an agreement to arbitrate any
existing or subsequent controversy * * * [c]ontained in a
contract of insurance”); Ark. Code Ann. § 16-108-233(b)(3)
(providing that Arkansas’s arbitration act “does not apply to
* * * [a]n insured or beneficiary under any insurance policy”);
Ga. Code Ann. § 9-9-2(b)(3) (providing that Georgia’s arbitration
act “shall not apply” to “[a]ny contract of insurance”); Haw. Rev.
Stat. § 431:10-221(a)(2) (“No insurance contract * * * shall
contain any condition, stipulation or agreement * * * [d]epriving
the courts of [Hawaii] of the jurisdiction of action against the
insurer[.]”); Ky. Rev. Stat. Ann. § 417.050 (providing that
Kentucky’s arbitration act “does not apply to * * * [i]nsurance
contracts”); La. Rev. Stat. Ann. § 22-868 (“No insurance contract
* * * shall contain any condition, stipulation, or agreement * * *
[d]epriving the courts of this state of the jurisdiction of action
against the insurer.”); Me. Rev. Stat. Ann. tit. 24-A, § 2433 (“No
conditions, stipulations or agreements in a contract of insurance
shall deprive the courts of this State of jurisdiction of actions
against foreign insurers[.]”); Md. Code Ann., Cts. & Jud. Proc.
§ 3-206.1 (“[A]ny provision in an insurance contract with a
consumer that requires arbitration is void and unenforceable.”);
10

31
to clarify the interaction between the FAA, the
McCarran–Ferguson Act, and state arbitration laws,
and once again to correct state courts’ continued
hostility toward arbitration.
CONCLUSION
This Petition for a Writ of Certiorari should be
granted. Alternatively, the Court should grant,

Mass. Gen. Laws ch. 175, § 22 (prohibiting provisions in “any
policy of insurance” that “depriv[es] the courts of the
commonwealth of jurisdiction of actions”); Mo. Rev. Stat.
§ 435.350 (exempting “contracts of insurance and contracts of
adhesion” from Missouri’s arbitration act); Mont. Code Ann. § 275-114(2)(c) (providing that Montana’s arbitration act “does not
apply to * * * any agreement concerning or relating to insurance
policies or annuity contracts”); Neb. Rev. Stat. § 25-2602(f)(4)
(providing that Nebraska’s arbitration act “does not apply to
* * * any agreement concerning or relating to an insurance
policy”); R.I. Gen. Laws § 10-3-2 (permitting insureds to opt out
of arbitration agreements “in all contracts of primary insurance”
if the arbitration provision “is not placed immediately before the
testimonium clause or the signature of the parties”); S.C. Code
Ann. § 15-48-10(b)(4) (providing that South Carolina’s
arbitration act “shall not apply to * * * any insured or
beneficiary under any insurance policy or annuity contract”);
S.D. Codified Laws § 21-25A-3 (providing that South Dakota’s
arbitration act “does not apply to insurance policies” and that
arbitration agreements in insurance policies are “void and
unenforceable”); Vt. Stat. Ann. tit 12, § 5653 (providing that
Vermont’s arbitration act “does not apply to * * * arbitration
agreements contained in a contract of insurance”); Va. Code Ann.
§ 38.2-312 (“No insurance contract * * * shall contain any
condition, stipulation or agreement * * * [d]epriving the courts
of [Virginia] of jurisdiction in actions against the insurer.”);
Wash. Rev. Code § 48.18.200 (rendering “void” any provision in
an insurance contract “depriving the courts of [Washington] of
the jurisdiction of action against the insurer”).

32
vacate, and remand in light of its decision in Humana
Inc. v. Forsyth, 525 U.S. 299, 309 (1999).
Respectfully Submitted,
MICHAEL D. LEFFEL
FOLEY & LARDNER LLP
150 East Gilman Street
Madison, WI 53703
(608) 258-4216

JAY N. VARON
Counsel of Record
FOLEY & LARDNER LLP
3000 K Street, N.W.
Washington, D.C. 20007
(202) 672-5380
jvaron@foley.com

AARON R. WEGRZYN
FOLEY & LARDNER LLP
777 East Wisconsin Ave.
Milwaukee, WI 53202
(414) 297-5156

KENDALL E. WATERS
FOLEY & LARDNER LLP
555 South Flower Street
Los Angeles, CA 90071
(213) 972-4899
Counsel for Petitioners

August 25, 2020

APPENDIX

1a
APPENDIX A
IN THE SUPREME COURT OF
THE STATE OF OKLAHOMA
[Filed May 27, 2020]
————
No. 115,789
2020 OK 42
————
WILLIAM B. SPARKS and DONNA SPARKS,
Plaintiffs/Appellees,
vs.
OLD REPUBLIC HOME PROTECTION COMPANY, INC.,
Defendant/Appellant,
OLD REPUBLIC INTERNATIONAL and
ALL SEASON’S HEATING AND AIR, LLC,
Defendants.
————
ON WRIT OF CERTIORARI TO THE COURT
OF CIVIL APPEALS, DIVISION NO. II
¶0 Plaintiffs are homeowners who brought suit
against Old Republic Home Protection Company, Inc.,
for breach of contract and bad faith breach of contract
of their home warranty policy. Defendant filed a
motion to compel arbitration of the underlying dispute
pursuant to a contractual provision requiring resolution of disputes through binding arbitration. Plaintiffs
argued that mandatory arbitration provisions are prohibited by 12 O.S. 2011 § 1855 (D) in any contract that
references insurance and this matter should proceed

2a
in district court. The court denied defendant’s motion
for arbitration. Defendant appealed from this interlocutory order and the Court of Civil Appeals affirmed
the District Court. We granted certiorari to address
the first impression question of whether this home
warranty contract constitutes an insurance contract.
We hold that the home warranty contract at issue
meets the definition of an insurance contract.
CERTIORARI PREVIOUSLY GRANTED;
OPINION OF THE COURT OF CIVIL APPEALS
VACATED; ORDER OF THE DISTRICT
COURT AFFIRMED; CAUSE REMANDED
FOR FURTHER PROCEEDINGS
Amy N. Bennett
John David Lackey
PAUL & LACKEY, P.C.
Tulsa, Oklahoma
For Defendants/Appellants
Mark E. Bialick
R. Ryan Deligans
DURBIN LARIMORE & BIALICK
Oklahoma City, Oklahoma
and
David W. Little
LAW OFFICES OF DAVID LITTLE
Oklahoma City, Oklahoma
For Plaintiff/Appellee

3a
OPINION
EDMONDSON, J.:
¶1 We granted certiorari to address the first
impression questions of: (1) whether a home warranty
plan meets the definition of an insurance contract,
(2) and if it is insurance, whether a forced arbitration
clause in such a contract is unenforceable under
the Oklahoma Uniform Arbitration Act, (3) whether
12 O.S. 2011 § 1855 of the Oklahoma Uniform Arbitration Act is a state law enacted for the purpose of
regulating insurance under the McCarran-Ferguson
Act, 15 U.S.C. § 1012 (b), and (4) whether pursuant to
the McCarran-Ferguson Act, does § 1855 preempt the
application of the Federal Arbitration Act, 9 U.S.C.
§§ 1 - 307? We answer all questions in the affirmative.
FACTS AND PROCEDURAL HISTORY
¶2 Donna Sparks purchased a policy from Old
Republic Home Protection (ORHP) which included
coverage for the repair or replacement cost of the home
air conditioning system during the stated policy term.
ORHP drafted this contract which included a provision that disputes between the parties would be
resolved by arbitration under the Federal Arbitration
Act. There is no evidence that this arbitration policy
provision was independently discussed or negotiated
between the parties. Almost six months after purchasing the coverage, the Plaintiffs alleged they
suffered a covered loss. Specifically, Plaintiffs claimed
that their home was extensively damaged as a result
of problems that arose from faulty repair work to the
air conditioning system. Plaintiffs notified ORHP
when covered repairs were needed who then selected
the repair company to be dispatched to their home.
Plaintiffs alleged that ORHP engaged in a pattern and

4a
practice of using unqualified contractors to perform
work and deliberately sought contractors who would
opine little or no work was needed. ORHP did not
directly perform the home repair services. Homeowners asserted that ORHP was negligent in the selection
and hiring of the repair company, and thus ORHP is
liable to the Plaintiffs for damage to their home. On
July 7, 2016, homeowners filed a lawsuit against
ORHP for breach of contract and bad faith breach of
contract.
¶3 The contract is titled as an “Oklahoma Home
Warranty.” The contract identifies the following
advantages of an Old Republic Home Warranty Plan:1
Home Buyers
In an ideal world, buying a home should be
one of the most memorable and rewarding
experiences of your life. However, the headaches caused by a heating system failure or a
broken refrigerator could taint those memories forever.
Safeguard your budget against expensive
system and appliance failures with an Old
Republic Home Warranty Plan. . . .
What would you pay without a home warranty? Potential out-of-pocket repair or replacement costs for major systems and
appliances:

1

Record, Exhibit 2, Defendant Old Republic Home Protection
Co., Inc.’s Motion to Stay and Compel Arbitration, and Brief in
Support, William B. Sparks and Donna Sparks, Plaintiffs v. Old
Republic Home Protection Company, Inc., Defendant, CJ-16-795,
District Court of Cleveland County.

5a
Item

Repair/Replacement
Cost without a Home
Warranty

Heating System

$318 - $3,911

Air Conditioning

$360 - $5,100

Water Heater

$384 - $2,331

Oven/Range

$325 - $2,487

Refrigerator

$294 - $1,904

Washer/Dryer

$230 - $1,112

The rate sheet reflects the respective premium for
each of the three different levels of coverage offered,
Standard, Ultimate and Platinum. On the bottom
corner of this page also appears an insignia with “Old
Republic Insurance Group.”2 Plaintiffs purchased the
Platinum coverage and the “Declaration of Coverage”
identifies the contract as a “home warranty.”3
¶4 Initially, ORHP pled that it was an insurance
company and that the agreement between ORHP and
the Plaintiffs was an “insurance” contract but later
pled that it was not an insurance company and that
this was simply a home service contract but not
insurance. This change in position was reflected in an
Amended Answer filed after the trial court’s February
7, 2017 Order denying ORHP’s motion to compel
arbitration. There is no transcript of this hearing and
2
3

Id

Record, Exhibit 3, Defendant Old Republic Home Protection
Co., Inc.’s Motion to Stay and Compel Arbitration, and Brief in
Support, William B. Sparks and Donna Sparks, Plaintiffs v. Old
Republic Home Protection Company, Inc., Defendant, CJ-16-795,
District Court of Cleveland County.

6a
no evidence in the record reflecting that ORHP
obtained leave of court to file the Amended Answer.
Homeowners did not file an objection to the amended
pleading.
¶5 On February 8, 2017 the trial court filed a
summary order stating ORHP’s “motion to compel
arbitration denied- motion to stay denied.”4 The trial
court made no other findings and the order is silent on
the reason for the denial. An appeal may be taken from
an order denying a motion to compel arbitration. 12
O.S. 2011 § 1879 (A) (1).
¶6 ORHP filed a Petition in Error on February 23,
2017 urging that it was error for the district court to
deny the Motion for Arbitration and Motion to Stay
“given the contract between the parties pursuant to
the Federal Arbitration Act (9 U.S.C. § 1, et seq.), the
Oklahoma Uniform Arbitration Act (12 O.S. § 1851
et seq.), and applicable case law interpreting those
statutes.”5 On appeal, ORHP argued as follows: (1) the
FAA controlled this dispute, (2) the Oklahoma Uniform Arbitration Act is preempted by the FAA,
(3) McCarran-Ferguson Act does not apply because
“Old Republic and the Plaintiffs chose the law that
governs all disputes (the FAA).” ORHP did not dispute
that the McCarran-Ferguson Act gives individual
states the right to regulate insurance or that “12
O.S. § 1855 (D) purports to regulate insurance in

4

William B. Sparks and Donna Sparks, Plaintiffs’ v. Old
Republic Home Protection Company, Inc., Defendant, CJ-16-795,
District Court of Cleveland County, Summary Order, 2-8-17.
5

William B. Sparks and Donna Sparks, Plaintiffs/Appellees,
v. Old Republic Home Protection Company, Inc., Defendant/
Appellant, 115,789, Petition in Error.

7a
Oklahoma.” However, ORHP argued that the
“McCarran-Ferguson Act can only apply when interpreting a contract that does not contain a choice of law
agreement,”7 and therefore, it was not relevant to any
issue before this Court. ORHP cited no legal authority
to support this last argument. The sole support offered
by ORHP was simply that “the FAA is not reverse
preempted by the McCarran-Ferguson Act because
this Contract chooses the FAA to the exclusion of
any contradictory laws.”8 We are not persuaded by
statements without legal authority.
6

¶7 ORHP drafted the preprinted policy issued to the
Plaintiffs. ORHP inserted all language regarding the
FAA choice of law. Contrary to ORHP’s argument,
Dean Witter Reynolds, Inc. v. Shear, 1990 OK 67, ¶ 1,
796 P.2d 296 does not support the argument that the
FAA must control as the “choice of law” chosen by the
parties in the contract; it offers no useful guidance in
this regard. Dean Witter obtained an arbitration
award against its customer and then brought an action
pursuant to the Oklahoma Uniform Arbitration Act to
obtain an executable judgment. On appeal, Shear
sought relief on the single contention that the arbitration and the choice-of-law clauses were void under a
provision of the Oklahoma constitution. We refused to
consider this argument because Shear failed to timely
preserve this issue by proper response to the summary
judgment filed by Dean Witter. For that reason we
held that Shear “cannot now invoke Oklahoma law to
6

William B. Sparks and Donna Sparks, Plaintiffs/Appellees,
v. Old Republic Home Protection Company, Inc., Defendant/
Appellant, 115,789, Appellant’s Brief in Chief
7

Id.

8

Id.

8a
test the validity of the arbitration clause of the State’s
fundamental law.” Dean Witter Reynolds, 1990 OK 67,
¶ 7, 796 P.2d at 298. We did not hold, as urged by
ORHP, that New York law and the arbitration clause
applied because of the parties “choice of law” provision
in the contract. Unlike the appellant in Dean Witter
Reynolds, the Plaintiffs challenged the choice of law
provision before the trial court, and this issue is fully
preserved. We do not find Dean Witter Reynolds
instructive on the issues before us.
¶8 ORHP further asserted that the application of 12
O.S. 2011 § 1855 conflicts with federal law, i.e. the
FAA, which should preempt any conflicting state law
under the pronouncements of Manna Health Care Ct.,
Inc. v. Brown, 565 U.S. 530, 132 S.Ct. 1201, 182
L.Ed.2d 42. In Marmet, the West Virginia court held
that as a matter of public policy under West Virginia
law, an arbitration clause in a nursing home agreement adopted prior to a negligent act shall not be
enforced to compel arbitration. The state court went
on to conclude that the FAA did not preempt the
state public policy against predispute arbitration
agreements as applied to claims for personal injury
against a nursing home. The Supreme Court found
that the FAA displaces a state law that prohibits
outright the arbitration of a particular type of claim.
Id., 565 U.S. at 533, 132 S.Ct. at 1203. The Marmet
court did not consider the reverse preemption granted
to states under the McCarran-Ferguson Act for state
law provisions relating to the business of insurance.
For this reason, we do not find Marmet controlling.
¶9 Next ORHP argued that “home warranties” are
really a ‘home service contract’ and therefore this type
of contract by statutory definition is not insurance
pursuant to the Oklahoma Home Service Contract Act,

9a
36 O.S. §§ 6750 - 6755. ORHP further argued, if this
contract is not “insurance” then Section 1855 of the
Oklahoma Uniform Arbitration Act would not apply,
which exempts any contract that “references insurance” from the provisions of that Act. If the contract at
issue was not one that referenced insurance, then the
McCarran-Ferguson Act would not apply to reverse
preempt the Federal Arbitration Act. Stated differently, the FAA would preempt any state law that
would be in conflict and this matter should be ordered
to arbitration. As more fully discussed below, we find
the home warranty is insurance and we reject these
contentions from ORHP.
¶10 On November 19, 2018 the Court of Civil
Appeals affirmed the lower court’s order, with one
judge dissenting. The majority concluded that Oklahoma state law, the Uniform Arbitration Act, 12 0.5.
2011 §1855 (D) prevented the trial court from compelling arbitration because the contract “referenced
insurance” within the meaning of this Act and further
that the Oklahoma legislature did not intend to
exempt contracts made pursuant to the Oklahoma
Home Service Contract Act9 (HSCA) and the Service
Warranty Act10 (SWA)from this provision in the
Uniform Arbitration Act. We agree.
¶11 On Petition for Certiorari, ORHP argued that
COCA erred and this matter presented a case of first
impression on whether an arbitration clause in a
“home protection plan” could be disregarded under the
Federal Arbitration Act (FAA). In addition, ORHP
urged that the decision by the COCA determining that
9
10

Title 36 O.S. 2011 & Supp. 2012 §§ 6750-6755.

Originally in Title 36, but revised and renumbered in 2012
as 15 O.S. §§ 141.1-141.35.

10a
the home warranty in this case is a contract that
“references insurance,” and calling home warranty
agreements “insurance”: (1) departed from the accepted and usual course of judicial proceedings calling
for this Court’s power of supervision, (2) invaded the
legislative prerogative and interpreted statutes contrary to the express language provided by the legislature, (3) deviated from federal and state case law by
invalidating the choice of law clause in the contract,
and the parties’ agreement to utilize the Federal
Arbitration Act, and (4) ignored the plain language of
the home service contract statute declaring that “home
service contracts are not insurance in this state.”
¶12 Homeowners argued that the federal McCarranFerguson Act authorized the “reverse preemption” of
the FAA in this instance. Because the FAA did not
preempt relevant Oklahoma state law involving the
regulation of insurance, Homeowners replied that the
Court of Civil Appeals did not err in holding that
§ 1855 of the Oklahoma Uniform Arbitration Act
barred the enforcement of arbitration in this matter.
We agree.
¶13 We granted certiorari on May 28, 2019.
STANDARD OF REVIEW
¶14 ORHP urged that arbitration is the appropriate
forum to resolve this matter. Homeowners disputed
that ORHP was entitled to an order for arbitration
under both Oklahoma law and federal precedent. As
the party opposing the motion for arbitration, the
Plaintiffs had the burden “to show that Congress
intended to preclude a waiver of judicial remedies for
the statutory rights at issue; an intention discernible
from the statute’s text or legislative history or an
inherent conflict between arbitration and the statute’s

11a
underlying purposes.” Thompson v. Bar-S Foods Co.,
2007 OK 75 8, 174 P.3d 567, 572. 11The trial court’s
denial of a motion to compel arbitration is to be
reviewed de novo. Thompson, 2007 OK 75, ¶ 9, 174 P.
3d at 572.12
FEDERAL LAW: REVERSE PREEMPTION UNDER
McCARRAN-FERGUSON ACT WITH STATE LAWS
INVOLVE]) IN REGULATION OF INSURANCE
¶15 Generally speaking, the Federal Arbitration Act
(FAA) preempts any state law limiting the enforcement of arbitration. See, eg., Preston v. Ferrer, 552
U.S. 346, 35253, 128 S. Ct. 978, 169 L.Ed.2d 917
(2008). Preemption stems from the Supremacy Clause
of the United States Constitution that insures federal
law will prevail or “preempt” a conflicting state law.
Smith Cogeneration Mgmt., Inc. v. Corp, Comm’n,
1993 OK 147, ¶ 21, 863 P.2d 1227, 1239. The foundation of ORHP’s argument is grounded in the concept of
preemption, namely that the FAA should have
preempted § 1855 of the Uniform Arbitration Act to
the extent it conflicted with the federal law, and the
parties should have been ordered to arbitrate the
claims. ORHP further urged that the COCA decision
violated the Supremacy clause of the United States
Constitution. However, ORHP’ s argument ignores the
clear mandates of another federal law, the McCarranFerguson Act, 15 U.S.C. §§ 1011 - 1015, which bestows
upon states absolute authority over matters relating to
11

Citing, Bruner v. Timberlane Manor Ltd. Partnership, 2006
OK 90, ¶ 22, 155 P.3d 16, 25, quoting Shearson/American Express,
Inc. v, McMahon, 482 U.S. 220, 227,107 S.Ct. 2332, 2337, 96
L.Ed.2d 185.
12

See also, Fleming Companies, Inc. v. Tru Discount Foods, 1999
OK CIV APP 18, 977 P.2d 367, certiorari denied (Feb. 10, 1999).

12a
the regulation of insurance. Minnieland Private Day
School, Inc. v. Applied Underwriters Captive Risk
Assur Co., Inc., 867 F. 3d 449 (4th Cir. 2017). This Act
and its implications must be understood in the context
of the issues material to this matter.
¶16 The McCarran-Ferguson Act was enacted in
1945 following a decision by the Supreme Court
holding insurance was subject to federal regulations
under the interstate commerce clause shifting control
away from the states. See United States v. SouthEastern Underwriters Ass’n, 322 U.S. 533, 64 S.Ct.
1162, 88 L.Ed. 1440 (1944). Prior to this decision, “it
had been assumed . . . that the issuance of an
insurance policy was not a transaction in interstate
commerce and that the States enjoyed a virtually
exclusive domain over the insurance industry.”
St. Paul Fire & Marine Ins. Co. v. Barry, 438 U.S. 531,
538-39, 98 S. Ct. 2923, 57 L.Ed2d 932 (1978). In
response to South-Eastern. Underwriters, Congress
legislatively restored the States preeminent position
with respect to the regulation of insurance through the
adoption of McCarran-Ferguson. See, U.S. Dep’t of
Treasury v. Fabe, 508 U.S. 491, 500, 113 S.Ct. 2202,
124 L.Ed.2d 449 (1993).
¶17 This Act specifically states that “no Act of
Congress shall be construed to invalidate, impair, or
supersede any law enacted by any State for the
purpose of regulating the business of insurance.”
15 U.S.C. § 1012. The landmark McCarran-Ferguson
Act completely “transformed the legal landscape by
overturning the normal rules of pre-emption.” U.S.
Dep’t of Treasury v. Fabe, 508 U.S. 491, 500, 113 S.Ct.
2202, 124 L.Ed.2d 449 (1993). McCarran-Ferguson
“authorizes ‘reverse preemption’ of generally applicable federal statutes by state laws enacted for the

13a
purpose of regulating the business of insurance.”
ESAB Grp. Inc. v. Zurich Ins. PLC, 685 F.3d 376, 380
(4th Cir. 2012), See also, Safety Nat’l Cas. Corp. v.
Certain Underwriters at Lloyd’s, London, 587 F.3d
714, 720 (5th Cir. 2009) (en bane), cert. denied, 562
U.S. 827, 131 S.Ct. 65, 178 L.Ed.2d 22 (2010).
¶18 Almost simultaneously with congressional efforts
to insure the states’ dominance with respect to insurance regulation, Congress was also moving to federalize arbitration policy. In 1925, Congress enacted the
Federal Arbitration Act (FAA), 9 U.S.C. §§ 1-16,
establishing a liberal federal policy in favor of
arbitration in maritime and commercial contracts.
ESAB, 685 F.3d at 380.13 The interplay between these
two acts is considered with regard to the resolution of
the issues before this Court.
McCARRAN FERGUSON ACT: CONTRACTS
REGULATING THE ‘BUSINESS OF
INSURANCE’ ARE PROTECTED
FROM PREEMPTION BY THE FAA
¶19 The Supreme Court of the United States has not
yet spoken on the specific interplay between the
McCarran-Ferguson Act and the FAA. However, the
high court has made clear that the FAA policy in favor
of arbitration may not be asserted to resolve a foundational challenge to the validity of an arbitration agreement. Granite Rock Co. v. Int’l Bhd. of Teamsters, 561
U.S. 287, 130 S.Ct. 2847, 177 L. Ed2d 567 (2010). The
Court explained that the presumption of favoring
arbitration is applied “only where it reflects, and
derives its legitimacy from a judicial conclusion that

13

See also, CompuCredit Corp. v. Greenwood, 565 U.S. 95, 132
S.Ct. 665, 181 L.Ed 2d 586.

14a
arbitration of a particular dispute is what the parties
intended because their express agreement to arbitrate
was validly formed and (absent a provision clearly and
validly committing such issues to an arbitrator) is
legally enforceable and best construed to encompass
that dispute. Id. 561 U.S. at 303, 130 S. Ct. 2847.
¶20 We acknowledge that by virtue of the
Supremacy Clause, “we are governed by the decisions
of the United States Supreme Court with respect
to the federal constitution and federal law, and we
must pronounce rules of law that conform to extant
Supreme Court jurisprudence.” Rollaway v. UNUM
Life Ins. Co. of America, 2003 OK 90, ¶ 15, 89 P.3d
1022, 1027. Where the United States Supreme Court
has not spoken on the direct issue, “we are free to
promulgate judicial decisions grounded in our own
interpretation of federal law.” Id.
¶21 A number of federal courts who have considered
the interplay between the FAA and the McCarranFerguson Act have held that state laws involving the
business of insurance take precedence over the competing federal law, FAA favoring arbitration. Minnieland Private Day Sch., Inc. v. Applied Underwriters
Captive Risk Assurance, 867 F.3d 449, 454 (4th Cir.
2017).14 The Fourth Circuit acknowledged that the
FAA generally preempts a state law limiting the
enforcement of arbitration agreements. The Minnieland
court discussed that it agreed with the district court’s
14

See also, Am. Bankers Ins. Co. Of Fla. v. Inman, 436 F.3d
490, 494 (5th Cir. 2006), Mississippi statute prohibiting arbitration of disputes related to coverage provisions in personal automobile insurance policies reverse preempts the FAA; Am. Health
& Life Ins. Co. v. Heyward, 272 F. Supp.2d 578, (D.S.C. 2003).
South Carolina law prohibiting mandatory arbitration provisions
in insurance contracts reverse preempts the FAA.

15a
conclusion that mandatory arbitration provisions in
insurance contracts were void pursuant to Va. Code
Ann. § 38.2-312. On appeal, there was no disagreement that this state law provision, which we note is
similar to the Oklahoma provision, reverse preempted
the FAA.
¶22 Many other courts have concluded that state
laws invalidating arbitration provisions in insurance
contracts reverse preempt the FAA. Am. Bankers ins.
Co. of Fla. v. Inman, 436 F.3d 490, 494 (5th Cir. 2006);
See also, Love v. Money Tree, Inc., 279 Ga. 476, 614
S.E.2d 47, automobile club memberships constituted
insurance and the state law prohibiting arbitration in
contracts of insurance was held to be a state law
enacted for the purpose of regulating insurance, and
thus, the McCarran-Ferguson Act precluded the FAA
from preempting the conflicting state law; State, Dept.
of Transp. v. James River Ins. Co., 176 Wash.2d 390,
292 P.3d 118 (2013), state statute prohibiting any
agreement in insurance contract which deprived court
of jurisdiction against the insurer and void mandatory
arbitration provisions constituted the business of regulating insurance, thereby shielding the state statute
from preemption by the FAA under the McCarranFerguson Act.
¶23 In this matter, the judicial conclusion by the
lower court was to deny ORHP’ s request for arbitration. The COCA then held that the state law, § 1855
which plainly exempts “contracts which reference
insurance” from arbitration is a state law regulating
the business of insurance. Accordingly, under the the
McCarran-Ferguson Act, the state law must prevail
over the federal law, the FAA; i.e., this state law enjoys
the benefit of reverse preemption.

16a
OKLAHOMA UNIFORM ARBITRATION ACT
“SHALL NOT APPLY TO CONTRACTS WHICH
REFERENCE INSURANCE”
¶24 Furthermore, for more than half a century, this
Court has held that an insurance company’s insertion
of forced arbitration in an insurance contract deprived
the insured of a judicial examination and determination of the issues and such policy provision was
contrary to public policy and unenforceable. Boughton
v. Farmers Ins. Exch., 1960 OK 159, ¶ 13, 354 P.2d
1085, 1089. Boughton relied solely on the common law
as Oklahoma had not yet enacted an arbitration
statute.
¶25 After the adoption of our state Uniform Arbitration Act, we examined the predecessor to § 1855, 15
O.S. 1991 § 802 (A) (repealed 2006) which stated that
the Act “shall not apply to . . . contracts with reference
to insurance except for those contracts between insurance companies.” Cannon v. Lane, 1993 OK 40, 867
P.2d 1235. In Cannon, we considered a binding arbitration provision in a health insurance contract and
refused to enforce an order for arbitration because the
contract between the parties “related to insurance”
falling within this exception to the Act. We also noted
that “under the authority of Wilson, Boughton, and 15
O.S. 1991 § 216, such a contract is void.” 1993 OK 40,
¶ 11, 867 P.2d at 1239.
¶26 In 2006, the Act was recodified and 15 O.S. 1991
§ 216 was replaced with the current law, 12 O.S. 2011
§ 1855 (D) which provides:
D. The Uniform Arbitration Act shall not
apply to collective bargaining agreements
and contracts which reference insurance,

17a
except for those contracts between insurance
companies. (Emphasis added).
Next, we examine whether the contract “references
insurance” and therefore is exempt from the Oklahoma
Uniform Arbitration Act. ORHP urged that the contract could not be treated as insurance because by
statute, “home service contracts are not insurance in
this state.” 36 O.S. 2011 § 6752 (9). We disagree with
this conclusion on the basis of several factors. The
contract drafted by ORHP is titled a “home warranty”
and not a home service contract, and it is unclear
whether § 6752 (9) has any application to the instant
matter. This will be discussed in more detail. In
addition, § 1855 (D) is broader than advocated by
ORHP. Section 1855 does not state that the Uniform
Arbitration Act shall not apply to insurance contracts,
rather it exempts contracts which simply reference
insurance as defined by this Court’s extensive jurisprudence. Finally, we look more closely at the nature
of the home warranty before us and examine its nature
in light of guidelines from the Supreme Court of the
United States, Oklahoma statutes defining “insurance,” and the wisdom of other Courts.
HOME WARRANTY CONTRACTS ARE
CONTRACTS THAT “REFERENCE INSURANCE”
¶27 We have previously noted the initial admission
by ORHP that the contract at issue was “insurance”
and it was an “insurance company.” Following the trial
court’s denial of the motion for arbitration, ORHP filed
an Amended Answer stating the policy at issue is not
insurance and it is not an insurance company. There
was no objection filed to this amended response, and
there is nothing in the record to reflect that ORHP
obtained leave of court to file this amendment. It is
evident from these contradictory pleadings that even

18a
ORHP was confused about whether the home warranty was insurance and if it was an insurance
company.
¶28 The record before us reflects that the Old
Republic International Corporation (ORI) Annual
Review, 2015, listed ORHP as a subsidiary and a
member of the company’s “General Insurance Group”
with “premiums written” in 2015 that exceeded two
hundred million dollars ($200,000,000.00).15 ORI also
listed ORHP as one of its 27 “insurance companies”16
and referred to ORHP as part of the “General Insurance Group” selling policies accounting for 5% of
all premium volume for the entire parent company.17
Although this information is not determinative of
whether the plan before us is “insurance” it does
reflect how the parent company considered and
treated ORHP. Furthermore, the actual contract with
the Plaintiffs has an insignia clearly printed on it “Old
Republic Insurance Group.”
¶29 ORHP solely drafted the contract and ORHP
determined the use of all terms including the following
references within the contract: “Oklahoma Home Warranty,” and “Old Republic Home Warranty Plan.”18
ORHP did not include the term “home service con15

Record, Exhibit 3 to Plaintiffs’ Objection to Defendant Old
Republic Home Protection Company’s Motion to Stay Order
Pending Appeal.
16

Id.

17

Record, Exhibit 4 to Plaintiffs’ Plaintiffs’ Objection to Defendant Old Republic Home Protection Company’s Motion to Stay
Order Pending Appeal, Record.
18

Record, Exhibit B to Defendant Old Republic Home Protection Co., Inc.’s Motion to Stay and Compel Arbitration, and Brief
in Support.

19a
tract” in the contract before this Court; in fact those
words are noticeably absent. Under the Old Republic
Home Warranty Plan, the Plaintiffs agreed to pay
a predetermined premium and, in exchange, ORHP
agreed to assume the risk of paying for the repair
and/or replacement of specifically identified appliances as well as heating and cooling systems.
Although ORHP designated the contract as a “home
warranty,” it argued that the contract should instead
be treated or deemed to be a “home service contract”
governed by the Oklahoma Home Service Contract Act
(HSCA), 36 O.S. 2011 §§ 6751 et seq.
¶30 Before we discuss what application, if any, the
HSCA has in this matter, we examine more closely the
terms and effect of the “home warranty plan” drafted
by ORHP and whether this contract is one that
“references” insurance. We note that even ORHP
has convincingly argued that the company’s “home
warranty plans are analogous to insurance.” See,
Campion v. Old Republic Home Protection Co., Inc.,
561 F.Supp.2d 1139, 1144, (S.D. Cal. 2012). In this
California case, ORHP was facing an action filed
under the Consumer Legal Remedies Act. In Campion,
identical to the instant contract before us, the ORHP
home warranty plan provided that covered systems
and appliances that become inoperable during the
contract term due to normal wear and tear will be
repaired or replaced at the expense of ORHP or the
plan holder would be provided with payment in lieu of
repair or replacement. Under the home warranty plan,
ORHP did not perform the services but rather maintained a network of independent contractors that
it dispatched to a planholder’s home to perform the
service. The plaintiff in Campion unsuccessfully
argued that the home warranty contracts fell under
the consumer act because they were “service” con-

20a
tracts. ORHP advocated in the California case that the
home warranty was not a service contract, but rather
was insurance. The Campion court was swayed by
ORHP’s position and offered the following notable
distinction:
Defendant’s home warranty plans are not
contracts for repair or replacement services
and Defendant does not itself provide these
services. Instead the plans are designed to
offer protection to home owners from potential future losses. The plans obligate Defendant to pay for the cost of the repair or replacement of covered systems and appliances that
become inoperable due to normal wear and
tear during the term of the contract. It is
possible a claim may never be submitted and,
thus, a homeowner may not receive any
‘goods or services’ under his or her plan. The
home warranty plans provide for a transfer of
risk that is not merely incidental, but rather
is a central and relatively important element
of the plans, and the relationship between
Defendant and its plan holders and their
respective obligations are consistent with the
concept of ‘insurance’, as it is defined in the
Insurance Code.
Campion, Id. at 1145-1146. The Campion court agreed
with ORHP that the home warranty plan was consistent with the concept of insurance.
¶31 Likewise, ORHP’s home warranty plan provides
for the transfer of risk that is a central and important
element of the plan. The plan reassured the Plaintiffs
that this plan would “safeguard your budget against
excessive system and appliance failures with an Old
Republic Home Warranty Plan.”

21a
¶32 In McMullan v. Enterprise Financial Group,
Inc., 2011 OK 7, 247 P.3d 1173, we were asked to
determine whether a ‘vehicle service contract’ met the
definition of an insurance contract. In concluding that
it was “insurance,” we relied on the guidance from the
United States Supreme Court, Group Life & Health
ins. Co. v. Royal Drug Co., 440 U.S. 205, 210, 228, 99
S.Ct. 1067, 59 L.Ed 2d 261 (1979) outlining the
following necessary elements:
. . . The primary elements of an insurance
contract are the spreading and underwriting
of a policy holder’s risk. It is characteristic of
insurance that a number of risks are
accepted, some of which involve losses, and
that such losses are spread over all the risks
so as to enable the insurer to accept each risk
at a slight fraction of the possible liability
upon it.” (Citations omitted)
McMullan, 2011 OK 7, ¶ 11, 247 P.3d at 1178.
We also recognized that the Royal Drug court,
quoting Jordan v. Group Health Assn, 71 App. D.C. 38,
107 F.2d 239 (1939) stated:
Whether the contract is one of insurance or of
indemnity there must be a risk of loss to
which one party may be subjected by contingent or future events and an assumption of it
by legally binding arrangement by another.
McMullan, 2011 OK 7, ¶ 12, 247 P.3d at 1178.
¶33 In McMullan we discussed that vehicle service
contracts were written like insurance policies and that
the “obvious purpose of a vehicle service contract is to
protect the purchaser from the expenses associated
with an unexpected mechanical breakdown or an

22a
expensive but necessary repair.” McMullan, 2011 OK
7, ¶ 13, 247 P.3d at 1178. In concluding that the contract was “insurance” we reflected that the “purchaser
pays a premium and buys an agreement to shift any
potential hazard they may face to the vehicle service
provider.” Id. Likewise, the primary feature of the
ORHP home warranty plan was to “safeguard [the
Plaintiffs’] budget against expensive system and
appliance failures with an Old Republic Home
Warranty Plan.”19 The Plaintiffs paid a premium to be
insured that they would not have to pay the full repair
costs in the event a covered system, like the air
conditioning needed repair or replacing. In fact, the
contract specifically notes the range of potential costs
in the event of a covered system failure. By purchasing
this policy, the Plaintiffs were relieved of this potential
liability and instead this potential cost shifted to
ORHP. Following our analysis in McMullan, the
ORHP contract before us meets all the hallmarks of an
insurance policy. Furthermore, this is the very conclusion reached by the Campion court when reviewing
the ORHP home warranty policy, and as argued by
ORHP in that matter.
¶34 We do not agree with the conclusion of ORHP
that the contract is governed by the Oklahoma Home
Service Contract Act. The legislature stated the
purpose of the Oklahoma Home Service Contract Act
“is to create an independent legal framework within
which home service contracts are defined, may be sold
and are regulated in this state.” 36 O.S. 2011 § 6751
19

Record, Exhibit 2, Defendant Old Republic Home Protection
Co., Inc.’s Motion to Stay and Compel Arbitration, and Brief in
Support, William B. Sparks and Donna Sparks, Plaintiffs v. Old
Republic Home Protection Company, Inc., Defendant, CJ-16-795,
District Court of Cleveland County.

23a
(A). The very next section, §6752 subpart (9), has three
sentences that need to be separately examined. The
first sentence in this subpart states as follows:
“Home service contract” or “home warranty”
means a contract or agreement for a separately stated consideration for a specific duration to perform the service, repair, replacement or maintenance of property or indemnification for service, repair, replacement or
maintenance, for the operational or structural failure of any residential property due
to a defect in materials, workmanship, inherent defect or normal wear and tear, with or
without additional provisions for incidental
payment or indemnity under limited circumstances. 36 O.S. 2011 §6752 (9)
The next sentence is directed only to “home service
contracts” and does not include a reference to “home
warranty” and states:
Home service contracts may provide for the
service, repair, replacement or maintenance
of property for damage resulting from power
surges or interruption and accidental damage
from handling and may provide for leak or
repair coverage to house roofing systems.
The final sentence provides:
Home service contracts are not insurance in
this state or otherwise regulated under the
Insurance Code. 36 O.S. 2011 § 6752 (9)
We take note that this final sentence does not state
that home service contracts or home warranties are
not insurance in this state or otherwise regulated
under the Insurance Code. The exclusionary language,
i.e. “not insurance,” is limited solely to “home service

24a
contracts.” Within this definition section, the legislature provided a separate definition for “warranty”
which states at § 6752 (11) as follows:
“Warranty” means a warranty made solely by
the manufacturer, importer or seller of property or services, including builders on new
home construction, without consideration, that
is not negotiated or separated from the sale of
the product and is incidental to the sale of the
product, that guarantees indemnity for defective parts, mechanical or electrical breakdown, labor or other remedial measures, such
as repair or replacement of the property or
repetition of services.
It is clear from this statutory scheme, that “home service contracts” are defined differently than a “home
warranty.” ORHP drafted this contract and identified
this policy as a “home warranty” and never refers to
this agreement as a “home service contract.” We find
that the Old Republic Home Warranty is not a home
service contract as defined by this Act.
CONCLUSION
¶35 We hold that the Plaintiffs’ home warranty plan
meets the definition of insurance and as such is
exempt from the Oklahoma Uniform Arbitration Act.
We further hold that § 1855 of this Act is a state law
enacted for the purpose of regulating insurance, and
thus, the McCarran-Ferguson Act applies precluding
the Federal Arbitration Act from preempting conflicting state law.
CONCUR: Gurich, C.J., Darby, V.C.J., Kauger,
Edmondson, Colbert, and Combs, JJ., Reif, S.J. and
Bass, S.J.
CONCURS IN RESULT: Winchester, J.

25a
APPENDIX B
THIS OPINION HAS BEEN RELEASED
FOR PUBLICATION BY ORDER OF
THE COURT OF CIVIL APPEALS
IN THE COURT OF CIVIL APPEALS OF THE
STATE OF OKLAHOMA
DIVISION II
[Filed November 19, 2018]
————
Case No. 115,789
————
WILLIAM B. SPARKS and DONNA SPARKS,
Plaintiffs/Appellees,
vs.
OLD REPUBLIC HOME
PROTECTION COMPANY, INC.,
Defendant/Appellant,
and
OLD REPUBLIC INTERNATIONAL and
ALL SEASON’S HEATING AND AIR, LLC,
Defendants.
————
APPEAL FROM THE DISTRICT COURT OF
CLEVELAND COUNTY, OKLAHOMA
HONORABLE TRACY SCHUMACHER,
TRIAL JUDGE
AFFIRMED

26a
Amy N. Bennett
John David Lackey
PAUL & LACKEY, P.C.
Tulsa, Oklahoma
Mark E. Bialick
R. Ryan Deligans
DURBIN LARIMORE & BIALICK
Oklahoma City, Oklahoma
For Defendants/Appellants
and
David W. Little
LAW OFFICES OF DAVID LITTLE
Oklahoma City, Oklahoma
For Plaintiff/Appellee
————
OPINION BY P. THOMAS THORNBRUGH,
CHIEF JUDGE:
¶1 Old Republic Home Protection Company, Inc.
(Old Republic), appeals a decision of the district court
finding that 12 O.S.2011 § 1855(D) prevented the court
from compelling arbitration of the dispute arising
from a home warranty/service contract between Old
Republic and William B. Sparks and Donna Sparks
(the Sparks). Section 1855(D) provides that “the Uniform Arbitration Act shall not apply to . . . contracts
which reference insurance . . . .”
¶2 We conclude that when the Legislature enacted
the “Oklahoma Home Service Contract Act”1 (HSCA)

1

Title 36 O.S.2011 & Supp. 2012 §§ 6750-6755.

27a
and the “Service Warranty Act”2 (SWA), it did not
intend to exempt contracts made pursuant to these
Acts from the provisions of 12 O.S.2011 § 1855(D), and
that such contracts “reference insurance” for the
purposes
of
§ 1855(D).
BACKGROUND
¶3 This appeal arises from a dispute between the
Sparks and Old Republic involving a “home warranty”
contract, and a series of problems with the Sparks’ air
conditioning. The Sparks sued Old Republic, alleging
a pattern and practice of using unqualified contractors
to perform work pursuant to the contract, and of
deliberately selecting contractors who would opine
that little or no work was needed to repair any covered
appliance or fitting while ignoring the opinion of contractors who believed that more substantive repair or
replacement was necessary. Old Republic sought to
compel arbitration of the dispute pursuant to a contractual arbitration clause. The Sparks argued that
arbitration of the dispute is prohibited by 12 O.S.2011
§ 1855(D) because the contract is one that “references
insurance.” The district court agreed, and refused to
compel arbitration. Old Republic appealed. In April
2017, the Supreme Court stayed the district court case
pending appeal.
STANDARD OF REVIEW
¶4 This appeal may be resolved by an interpretation
of the phrase “references insurance” in 12 O.S.2011
§ 1855(D). Statutory construction and interpretation
is a question of law. Mariani v. State ex rel. Oklahoma
2

Originally in Title 36, but revised and renumbered in 2012
as 15 O.S. §§ 141.1-141.35.

28a
State Univ., 2015 OK 13, ¶ 7, 348 P.3d 194. Our
standard of review is de novo on a question of law,
which we review without deference to the trial court’s
reasoning or result.
ANALYSIS
¶5 This case presents a singular question of law:
was the contract sold to the Sparks by Old Republic a
contract “referencing insurance” that is subject to the
arbitration prohibition of 12 O.S.2011 § 1855(D),
which provides that “the Uniform Arbitration Act
shall not apply to . . . contracts which reference
insurance. . . .” Old Republic brings three arguments
contending that any dispute arising from the contract
sold to the Sparks is subject to the mandatory
arbitration provided for in the contract.3 The first is
that Oklahoma law is preempted by federal law in this
matter. The second is that arbitration pursuant to the
Federal Arbitration Act (FAA) is a contractual “choice
of law” by the parties that the courts must enforce. The
third is that the HSCA, 36 O.S.2011 & Supp. 2012
§§ 6750-6755, exempts the contract from the
provisions of § 1855(D).
I. PREEMPTION
¶6 Old Republic first argues that § 1855(D) is preempted by federal law. Regulation of the business of
insurance is traditionally reserved to the states, and
Old Republic’s argument has been persistently rejected by both Oklahoma and federal courts, based on
an interpretation of the McCarran-Ferguson Act. This
Act, at 15 U.S.C. § 1012(b), states that “no Act of
3

The record is clear that the contract in question explicitly
provides that disputes arising from the contract be arbitrated
pursuant to the Federal Arbitration Act (FAA).

29a
Congress shall be construed to invalidate, impair, or
supersede any law enacted by any State for the purpose of regulating the business of insurance.” “Thus,
McCarran-Ferguson authorizes `reverse preemption’
of generally applicable federal statutes by state laws
enacted for the purpose of regulating the business of
insurance.” ESAB Grp., Inc. v. Zurich Ins. PLC, 685
F.3d 376, 380 (4th Cir. 2012); see also Am. Bankers Ins.
Co. of Fla. v. Inman, 436 F.3d 490, 494 (5th Cir. 2006)
(holding that Mississippi statute prohibiting contractually required arbitration of disputes stemming from
uninsured and underinsured motorist coverage provisions of personal automobile insurance policies reverse
preempts FAA); Am. Health & Life Ins. Co. v.
Heyward, 272 F.Supp.2d 578, 582 (D.S.C. 2003) (holding that South Carolina law prohibiting mandatory
arbitration provisions in insurance contracts reverse
preempts the FAA); and Minnieland Private Day Sch.,
Inc. v. Applied Underwriters Captive Risk Assurance
Co., Inc., 867 F.3d 449, 453-54 (4th Cir. 2017). We find
this question well-settled in case law, and reject Old
Republic’s contention that § 1855(D) is preempted by
federal law.
¶7 In addition we are not willing to read a federal
preemption into the Oklahoma Legislature’s statement that these contracts are “not insurance” for the
purpose of certain state regulations. If the Legislature
were to declare that an otherwise ordinary contract
“was insurance” or “references insurance,” this declaration would have no effect whatsoever on whether
federal law would preempt the application of
§ 1855(D). The federal inquiry would simply ignore the
statement of the Legislature, and determine if the law
was “enacted by any State for the purpose of regulating the business of insurance” pursuant to federal
standards. The same facts apply in the reverse situa-

30a
tions. The application or preemption of § 1855(D) is
based on an analysis of the nature, operation, and
purpose of the law in question, not on how the
Oklahoma Legislature chooses to characterize it.
II. CHOICE OF LAW
¶8 Old Republic next argues that the Oklahoma
prohibition on arbitration of contracts with reference
to insurance may be circumvented if an insurer
“chooses” the FAA as the governing law of an (adhesive) insurance contract. The Oklahoma Supreme
Court rejected this argument in Cannon v. Lane, 1993
OK 40, 867 P.2d 1235, holding that, if the parties agree
in an insurance contract to submit controversies to
arbitration that are otherwise barred by the public
policy expressed in 15 O.S.1991 § 802(A) (now 12 O.S.
§ 1855(D)) such agreements are unenforceable. Id.,
¶¶ 3, 11.
III. THE OKLAHOMA HOME SERVICE
CONTRACT ACT
¶9 Old Republic’s third argument is that that the
contract in question is a “home service contract” or
“home warranty,” and hence it is exempt from the
insurance arbitration prohibition of 12 O.S.2011
§ 1855(D) because these contracts are statutorily “not
insurance.”4 Oklahoma has created several statutory
or common-law categories of contracts that provide
non-traditional insurance coverage, and are regulated

4

See SWA § 141.2(17)(f), stating that “service warranties are
not insurance in this state or otherwise regulated under the
Insurance Code,” and HSCA § 6752(9), stating, “Home service
contracts are not insurance in this state or otherwise regulated
under the Insurance Code.”

31a
by a regime different from that applied to traditional
insurance providers.
¶10 The Legislature created the SWA in 1993
(originally in Title 36, but revised and renumbered in
2012 as 15 O.S. §§ 141.1-141.35). In 2011, the Legislature created the HSCA, now codified at 36 O.S.2011 &
Supp. 2012 §§ 6750-6755. No published case law has
directly interpreted either of these Acts since they
became law. It is clear that the Legislature intended
that both “Home Service Contracts” and “Service
Warranties” be subject to regulatory regimes separate
from those governing general insurance, and also
separate from each other.5 The difference between the
two Acts, and what types of contracts fall under each
Act, is not immediately obvious, and some additional
analysis is necessary because it is not clear whether
the contract in question is legally a home service
contract or a service warranty.
A. Home Warranty or Service Warranty?
¶11 Each Act contains a statement of what activities
are covered by the respective Act, both of which are
reproduced below with the differences highlighted:
HSCA § 6752(9) provides as follows:
“Home service contract” or “home warranty”
means a contract or agreement for a separately stated consideration for a specific
duration to perform the service, repair,
replacement or maintenance of property or
indemnification for service, repair, replace5

HSCA § 6753 is clear that “home service contract providers
as defined in Section 6752 of this title and properly registered
under this law are exempt from any treatment pursuant to the
Service Warranty Act.”

32a
ment or maintenance, for the operational or
structural failure of any residential property
due to a defect in materials, workmanship,
inherent defect or normal wear and tear,
with or without additional provisions for incidental payment or indemnity under limited
circumstances. Home service contracts may
provide for the service, repair, replacement,
or maintenance of property for damage resulting from power surges or interruption and
accidental damage from handling and may
provide for leak or repair coverage to house
roofing systems. Home service contracts are
not insurance in this state or otherwise regulated under the Insurance Code. (Emphasis
added.)
SWA §141.2(17) provides as follows:
“Service warranty” means a contract or agreement for a separately stated consideration for
a specific duration to perform the repair or
replacement of property or indemnification
for repair or replacement for the operational
or structural failure due to a defect or failure
in materials or workmanship, with or without additional provision for incidental payment of indemnity under limited circumstances, including, but not limited to, failure
due to normal wear and tear, towing, rental
and emergency road service, road hazard,
power surge, and accidental damage from
handling or as otherwise provided for in the
contract or agreement. The term “service
warranty” includes a contract or agreement to
provide one or more motor vehicle ancillary

33a
service(s) as defined by this section. (Emphasis added.)
¶12 Hence, a “home service contract” or “home warranty” covers “service, repair, replacement or maintenance” while a “service warranty” covers only “repair
or replacement.” HSCA § 6752(4) and § 6751(B)(2)
state that a contract “that provides for scheduled
maintenance only and does not include repair or
replacement” is a “maintenance agreement” and that
maintenance agreements are excluded from the
HSCA. Therefore, a home warranty must offer “repair
and replacement” in addition to “maintenance.”
¶13 Another statutory difference is that a home warranty covers inherent defects or normal wear and tear,
while a service warranty may exist without provisions
for payment of damage due to normal wear and tear.
Further, a home warranty covers “residential property” while a “service warranty” covers “property.”
The two Acts clearly have a substantial overlap in
definition.6
¶14 The singular clarity that is manifest is provided
by HSCA § 6751(Purpose-Exemptions), which provides in part:
A. The purpose of the Oklahoma Home Service Contract Act is to create an independent
legal framework within which home service
contracts are defined, may be sold and are
regulated in this state.
...
6

By example, the “service or maintenance” of equipment or
fittings may, in the plain meaning of the words, involve “repair
or replacement,” and “property” may include “residential
property.”

34a
Proper registration under the Oklahoma
Home Service Contract Act exempts applicability under the Service Warranty Act,
which may regulate extended warranty,
retail, automobile and agreements not
defined in the Oklahoma Home Service
Contract Act. Nothing in the Service
Warranty Act is changed or amended by the
Oklahoma Home Service Contract Act.
¶15 The latter section of HSCA § 6751 shows that,
in 2011, the Legislature intended to remove the
potential regulation of home warranties from the SWA
and place them under a new legislative scheme.
Hence, irrespective of the broad and potentially overlapping definitions contained in each, the legislative
intent was evidently for the HSCA to regulate the sale
of warranties or service agreements on real property
and the associated attachments fittings, and appliances, while the SWA was intended to regulate the
sale of retail extended warranties (such as warranties
on consumer electronics), automobile service agreements and similar consumer agreements not involving
real property. The contract in question bears all the
hallmarks of a home warranty rather than a service
warranty, and we find that it was both intended as,
and statutorily is, a home warranty.
¶16 In short, we are faced with a contract that is
fundamentally a “home warranty,” written by a
traditional insurer who is an “exempt” provider of
service warranties. But what is the status of such
a contract vis-à-vis the arbitration bar of 12 O.S.
§ 1855(D)? Does it “reference insurance” so as to invalidate the contractual arbitration provisions?

35a
IV. DO CONTRACTS ISSUED PURSUANT TO THE
HSCA OR SWA REFERENCE INSURANCE FOR
THE PURPOSES OF 12 O.S. § 1855(D)?
¶17 Old Republic largely bases its argument on the
definition found in 15 O.S. Supp. 2014 § 141.2(17)(0,
which states that “service warranties are not insurance in this state or otherwise regulated under the
Insurance Code” and interprets this as a legislative
decision to remove such contracts from the requirement of 12 O.S.2011 § 1855(D) that “the Uniform
Arbitration Act shall not apply to . . . contracts which
reference insurance.” We are not inclined to so readily
interpret a tacit intention of the Legislature to remove
what are so clearly contracts of insurance from the
Oklahoma public policy regulating insurance
expressed by § 1855.
V. DOES 15 O.S. SUPP. 2014 § 141.2(17)(f)
PLACE HOME WARRANTIES OUTSIDE OF
2 O.S.2011 § 1855(D)?
¶18 The cardinal rule of statutory construction is to
ascertain legislative intent. Both the SWA and the
HSCA contain statements to the effect that home
service contracts and/or service warranties are not
insurance in this state. However, the same contracts
are clearly designed to function and perform as
“insurance,” and are subject to a regulatory regime
that is substantially identical to that applied to
insurance under the authority of the State Insurance
Commissioner. The requirements placed on vendors
who sell such “warranty” or “service” contracts are
unique to the regulation of “insurance” and are clearly
rooted in the same public policy that overcomes the
general freedom of contract and allows the state to
strictly regulate the form and practice of insurance

36a
agreements. And yet, the Legislature has stated that
these contracts are “not insurance.”
¶19 Did the Legislature simply declare that these
agreements are regulated by special regimes similar
to but apart from those applied to traditional insurance products, or did it intend to declare that such
agreements do not “reference insurance” for purposes
of 12 O.S.2011 § 1855(D) and thus are not encompassed by the public policy embodied in § 1855(D)?7 An
examination of the statutory text alone does not
provide the answer to this question, which appears
to be one of first impression. No published or
unpublished decision found by this Court addresses
either of the current Acts in any context.
¶20 For the reasons outlined below, we find the
legislative intent expressed in the HSCA and SWA can
be reconciled by recognizing that such contracts bear
all the fundamental features of insurance and are
regulated as insurance is regulated. We conclude
that the Legislature intended to create a separate regulatory regime for these contracts but
did not intend to exempt them from the public
policy embodied in the arbitration prohibition
of § 1855(D).
¶21 “‘Insurance’ is a contract whereby one undertakes to indemnify another or to pay a specified
amount upon determinate contingencies.” 36 O.S.2011
§ 102. Both HSCA and SWA contracts display all the
fundamental features of insurance. Both operate
by risk pooling, which fundamentally distinguishes
insurance contracts from ordinary contracts and is “an
7

Another option, of course, is that the Legislature did not
consider § 1855(D) at all when constructing the SWA and HSCA,
and had no intent to change its scope.

37a
essential characteristic of the insurance industry.”
Hollaway v. UNUM Life Ins. Co. of Am., 2003 OK 90,
¶ 22, 89 P.3d 1022.
¶22 The primary attributes of an insurance contract
are the spreading and underwriting of a policyholder’s
risk. “It is characteristic of insurance that a number of
risks are accepted, some of which involve losses, and
that such losses are spread over all the risks so as to
enable the insurer to accept each risk at a slight
fraction of the possible liability upon it.” Grp. Life &
Health Ins. Co. v. Royal Drug Co., 440 U.S. 205, 211,
99 S. Ct. 1067, 1073 (1979)(quoting 1 G. Couch,
Cyclopedia of Insurance Law § 1;3 (2d ed. 1959)).
Examining the HSCA and SWA in detail, we note that
“service warranties” and “home service contracts” not
only are “insurance” by the classic definition, but they
also are regulated by the Legislature in the same
manner as insurance contracts. Providers must register, obtain a revocable license, and comply with numerous financial responsibility requirements regulating reserves. (See SWA §§ 144.4-144.7 and HSCA
§ 6753(C)). Enforcement is carried out by an insurance
commissioner. All of these provisions are fundamental
to insurance regulation and its unique position in state
law.
¶23 Although HSCA and SWA vendors evidently are
subjected to less stringent regulatory requirements
than traditional insurance companies, “the extent of
regulation is not what makes a service provider an
‘insurance company’ nor is it what makes a service
agreement an ‘insurance’ contract.” McMullan v.
Enter. Fin. Grp., Inc., 2011 OK 7, ¶ 10, 247 P.3d 1173.
Such warranties clearly are not ordinary contracts
under Oklahoma law, and, in the absence of the
Legislature stating that they are “not insurance,” they

38a
would certainly be classed as contracts “which reference insurance.” The question therefore becomes
whether the Legislature, by stating that these contracts are not insurance for purposes of general insurance regulation, also intended to reverse the otherwise
evident conclusion that they “reference insurance” for
purposes of 12 O.S. § 1855(D)? We hold that it did not.
B. McMullan - Bad Faith and Insurance Guarantees
¶24 A possible historical context can be found by
examining the 2011 McMullan case. The SWA was
enacted in 1993.8 The 1993 version of the Act differs
from the 2012 version in two important ways. The
1993 version did not contain the “shall not be deemed
to create a special relationship between the parties
which would give rise to an action in tort to recover for
breach of the duty of good faith and fair dealing.” Nor
did the 1993 version require the policy disclosure
statement warning required by current SWA § 141.21,
that “This is not an insurance contract. Coverage
afforded under this contract is not guaranteed by the
Oklahoma Insurance Guaranty Association.”
¶25 McMullan found that vehicle service contracts
which fell under the SWA met the definition of and
were designed to function and perform as “insurance,”
and, therefore, could support a cause of action for
bad faith. The “no bad-faith” language subsequently
added to the SWA was clearly intended to override
McMullan. More importantly, because McMullan declared service warranties to be “insurance,” the Legislature evidently also wished to clarify that, unlike
traditional insurance policies, service warranties are

8

The Act was originally part of Title 36 – Insurance. In 2012,
it was recodifed as part of Title 15 – Contracts.

39a
not subject to or guaranteed by the Oklahoma Property and Casualty Insurance Guaranty Association
Act.9 It is in this context that the Legislature stated that
such contracts are “not insurance,” and required a
warning to that effect.
C. We find No Explicit Exclusion of Service
Warranties or Home Warranties from § 1855(D)
¶26 We conclude that, had the Legislature intended
to exclude home and service warranties from § 1855(D),
it would have clearly and explicitly stated so. Instead,
it appears that the Legislature was primarily concerned with distinguishing the specific regulatory and
guarantee regimes applied to home and service warranties from general insurance regulation when it
stated that these contracts, which bear all the fundamental hallmarks of insurance, are “not insurance.”
¶27 We further find no difference or rationale in
public policy that would require § 1855(D) to apply to
all contracts that reference insurance and function
as insurance except home and service warranties.10
9

The Oklahoma Property and Casualty Insurance Guaranty
Association Act, 36 O.S.2011 & Supp. 2014 §§ 2001-2020.2,
created a nonprofit, unincorporated legal entity known as the
Oklahoma Property and Casualty Insurance Guaranty Association. The Association collects assessments from any insurer
writing the “kind of insurance to which the [Act] applies,” and
uses the funds to pay covered claims of insurers that have become
insolvent. Although their activities have all the features of
property/casualty insurance, we find no indication that service
warranty providers traditionally paid assessments to the Association. Hence the Legislature’s desire to specifically exclude
these contracts from the definition of an “insurer” under the Act.
10

The SWA covers contracts insuring against “accidental
damage from handling or as otherwise provided for in the contract
or agreement.” This could open the door to all property insurance

40a
Regulation under the SWA and HSCA clearly arises
from the public policy regarding insurance. These
contracts are regulated in the manner of insurance for
the same policy purposes. Indeed, if the public policy
that requires intrusive regulation of the insurance
business is inapplicable because these contracts are
truly “not insurance,” or contracts that “reference
insurance,” it is difficult to discern how the Legislature could force such strict and intrusive regulation of
ordinary contracts without interfering with the state
policy of freedom of contract.”
¶28 In the absence of clearly demonstrated legislative intent to exempt such contracts from § 1855(D),
and because these contracts clearly function as insurance and are subject to the public policy expressed in
§ 1855(D), we hold that such contracts “reference
insurance” for purposes of that statute, and that any
mandatory arbitration clause in such a contract is
void.
VI. REGISTRATION ARGUMENTS
¶29 The record also indicates that Old Republic is
not registered as a vendor of home warranties under
the HSCA, although it is registered under the SCA.
The Sparks argue that registration is a requirement to
regulation under the Act, and therefore, even if we
were to find that registered providers of home warranties are exempt from the arbitration bar of 12 O.S.
§ 1855(D), Old Republic would still not be not entitled
to such an exemption, As we have previously found
that contracts pursuant to the HSCA or SWA do
“reference insurance” for the purposes of § 1855(D)

being characterized as a “service warranty” by the vendor
specifically to evade the public policy embodied in § 1855(D).

41a
(irrespective of registration), we need not address this
argument.
CONCLUSION
¶30 We find that contracts issued pursuant to
the SWA and HSCA “reference insurance” for the
purposes of 12 O.S. § 1855(D). Hence, disputes arising
from those contracts are not subject to mandatory
arbitration.
AFFIRMED.
WISEMAN, P.J., concurs, and FISCHER. J., dissents.
FISCHER, J., dissenting:
¶1 In my view, the Legislature has decided that the
contract at issue in this case is not insurance. Therefore, arbitration of this dispute is not prohibited by
section 1855(D) of the Oklahoma Uniform Arbitration
Act, 12 O.S.2011 §§ 1851 through 1881, excluding from
compelled arbitration contracts that reference insurance. I would reverse the order appealed and remand
with instructions to grant Old Republic’s motion to
compel arbitration. Therefore, I respectfully dissent.
BACKGROUND
¶2 The parties entered into a contract to be effective
from September 15, 2015, to September 15, 2016. The
document describes the contract as an “Oklahoma
Home Warranty.” The contract provides for repair
and/or replacement of certain home appliances located
at the Sparks’ residence in Moore, Oklahoma. Old
Republic asserts that this was the sixth renewal of the
Sparks’ Home Warranty contract for appliances
located at that residence, an assertion not disputed by
the Sparks. The contract Declaration of Coverage page
contains a “DISPUTE RESOLUTION” section, which

42a
states that the contract is subject to an “Arbitration
Provision outlined on Page 9;” but, if the Sparks did
not want to be subject to the arbitration provision,
they could cancel the contract within thirty days.
“Otherwise, this arbitration provision will be
applicable.”
¶3 The arbitration provision referred to is on page
nine of the contract and states that the parties agree
to arbitrate all disputes or claims arising out of the
contract or the parties’ relationship. The arbitration
provision invokes the rules for consumer disputes of
the American Arbitration Association and provides
that the arbitration of any dispute will be “governed
by the Federal Arbitration Act (9 U.S.C. § 1, et seq.) to
the exclusion of any different or inconsistent state or
local law, ordinance or judicial rule.”
¶4 The Sparks allege that on March 11, 2016, they
had a loss to their air conditioning system covered by
the Home Warranty, and that Old Republic was
unable to repair the air conditioning system to their
satisfaction. Old Republic does not dispute this allegation. Nor is there any disagreement regarding whether
this dispute is covered by the parties’ arbitration
clause. This dispute concerns the enforceability of
the parties’ agreement to arbitrate this dispute. The
Sparks sued Old Republic for breach of contract and
the tort of breach of duty to deal fairly and in good
faith. Old Republic filed a motion to compel arbitration
pursuant to the arbitration clause in the parties’ Home
Warranty contract. Old Republic appeals the district
court’s order denying its motion to compel arbitration.
I. The Parties’ Contract Is Not Insurance
¶5 Section 1855(D) provides: “The Uniform Arbitration Act shall not apply to . . . contracts which

43a
reference insurance, except for those contracts between insurance companies.” The Sparks contend that
their Home Warranty is a contract of insurance and,
therefore, arbitration of this dispute is prohibited by
section 1855(D). As authority for this proposition, the
Sparks cite McMullan v. Enterprise Financial Group,
Inc., 2011 OK 7, 247 P.3d 1173, which held that a
vehicle service warranty contract was an insurance
contract for purposes of the Oklahoma Service
Warranty Insurance Act, 36 O.S.2001 §§ 6601 through
6639. The Sparks contend that we should follow
McMullan and hold that this Home Warranty is an
insurance contract. To do so would ignore what is, in
my view, the Legislature’s clear intent to the contrary.
¶6 The Oklahoma Service Warranty Insurance Act
at issue in McMullan was repealed in 2012 and
replaced by the Service Warranty Act, 15 O.S. Supp.
2012 §§ 141.1 through 141.35, the applicable legislation in this case. The definition of a “service warranty”
is identical in both statutes, with one critical exception. The new Service Warranty Act added a
provision to the definition of “service warranty”
making it clear that a service warranty contract is not
an insurance contract.1 That provision states that
“service warranties are not insurance in this state
or otherwise regulated under the Insurance Code.”
15 O.S. Supp. 2012 § 141.2(14)(f) (renumbered as
§ 142(17)(f)). In my view, it is clear that the Service
Warranty Act was adopted in response to the
McMullan decision and for the purpose of changing
the “existing law,” as interpreted by the McMullan
1

The Sparks’ counsel’s failure to note this fact or comment on
the effect of the repeal of the Oklahoma Service Warranty
Insurance Act on the continued viability of the McMullan holding
is a disservice to this Court and the district court.

44a
Court, to exclude service warranties from the kinds of
contracts that do constitute insurance. See Blitz
U.S.A., Inc. v. Okla. Tax Comm’n, 2003 OK 50, ¶ 19,
75 P.3d 883 (by amending a statute the Legislature
may intend to change existing law).
¶7 There are two statutory regimes potentially
applicable to the parties’ contract, the Service Warranty Act (15 O.S. Supp. 2012 §§ 141.1 through 141.35)
and the Home Service Contract Act (36 O.S.2011
§§ 6750 through 6755). As the Majority correctly
points out, there is some overlap but also there
are some differences between the kinds of contracts
covered by the two acts. The parties’ Home Warranty
contract contains provisions that are covered by both
acts.
¶8 However, I find it unnecessary to determine
whether the parties’ Home Warranty contract is governed by one Act to the exclusion of the other because
the Legislature has excluded both types of contracts
from the definition of “insurance.” Both statutes
declare that home service contracts and service warranty contracts O.S.2011 § 6752(9). “The law-making
body is presumed to have expressed its intent in a
statute’s language and to have intended what the text
expresses.” Yocum v. Greenbriar Nursing Home, 2005
OK 27, ¶ 9, 130 P.3d 213. “When statutory language is
unambiguous, no further construction is needed . . . .”
St. John Med. Ctr. v. Bilby, 2007 OK 37,¶ 6, 160 P.3d
978. Because the Legislature has declared that the
parties’ contract is not “insurance,” arbitration of this
dispute is not prohibited by section 1855(D) of the
Uniform Arbitration Act.

45a
II. McCarran-Ferguson Preemption
¶9 The Sparks also argue, in essence, that even if
their Home Warranty is not an insurance contract
(1) it is, nonetheless, a contract which references
insurance; (2) contracts which reference insurance
are excluded from the application of the Uniform
Arbitration Act pursuant to section 1855(D); (3) section 1855(D) is a state law regulating insurance and,
therefore, (4) the McCarran-Ferguson Act, 15 U.S.C.
§§ 1010 through 1015, preempts the Federal Arbitration Act, 9 U.S.C. §§ 1 through 16, and any effort to
compel arbitration of this dispute. That interpretation
of section 1855(D) directly conflicts with the Federal
Arbitration Act’s well-established national policy applicable in state and federal courts, “foreclose[ing]
state legislative attempts to undercut the enforceability of arbitration agreements.” Preston v. Ferrer, 552
U.S. 346, 353, 128 S. Ct. 978, 983 (2008).
¶10 The Majority finds this issue “well settled” in
case law from four federal courts. I do not. Neither this
Court, the Oklahoma Supreme Court, nor the United
States Supreme Court has directly addressed the
potential conflict between the McCarran-Ferguson Act
and the Federal Arbitration Act.
¶11 Section 2 of the Federal Arbitration Act states:
A written provision in any . . . contract
evidencing a transaction involving commerce
to settle by arbitration a controversy thereafter arising out of such contract or transaction . . . shall be valid, irrevocable, and
enforceable, save upon such grounds as exist
at law or in equity for the revocation of any
contract.

46a
15 U.S.C. § 2. Section 1012 of the McCarran-Ferguson
Act preempts any “Act of Congress” which invalidates,
impairs, or supersedes a State law enacted for the
purpose of regulating “the business of insurance.” 15
U.S.C. § 1012(b).2 The United States Supreme Court
has invoked the McCarran-Ferguson Act to hold that
a state creditor priority law applicable to insolvent
insurance companies was not preempted by a federal
creditor priority statute because the state law’s
protection of the claims of insurance policyholders
involved “the actual performance of an insurance
contract . . . an essential part of the ‘business of
insurance.’ United States Dep ‘t of Treasury v. Fabe,
508 U.S. 491, 505, 113 S. Ct. 2202, 2210 (1993). But
Fabe did not involve an agreement to arbitrate or the
applicability of the Federal Arbitration Act, Nonetheless, Congress did not intend to “cede the field of insur2

(a) State regulation
The business of insurance, and every person engaged
therein, shall be subject to the laws of the several
States which relate to the regulation or taxation of
such business.

(b) Federal regulation
No Act of Congress shall be construed to invalidate,
impair, or supersede any law enacted by any State for
the purpose of regulating the business of insurance, or
which imposes a fee or tax upon such business, unless
such Act specifically relates to the business of insurance: Provided, That after June 30, 1948, the Act of
July 2, 1890, as amended, known as the Sherman Act,
and the Act of October 15, 1914, as amended, known as
the Clayton Act, and the Act of September 26, 1914,
known as the Federal Trade Commission Act, as
amended [15 U.S.C.A. 41 et seq.], shall be applicable to
the business of insurance to the extent that such
business is not regulated by State law.

47a
ance regulation to the States” by enacting the
McCarran-Ferguson Act. Humana Inc. v. Forsyth, 525
U.S. 299, 308, 119 S. Ct. 710, 717 (1999).
¶12 Although no United States Supreme Court
decision has addressed the potential conflict between
the McCarran-Ferguson Act and the Federal Arbitration Act, with respect to any conflict between the
Federal Arbitration Act and state law, that Court’s
position is clear: “[W]hen state law prohibits outright
the arbitration of a particular type of claim, the
analysis is straightforward: The conflicting rule is
displaced by the FAA.” Marmet Health Care Ctr. Inc.
v. Brown, 565 U.S. 530, 533, 132 S. Ct. 1201, 1204
(2012) (invalidating a state law prohibition on arbitration of nursing home disputes) (citing AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 341, 131 S. Ct. 1740,
1747 (2011) (state law doctrine prohibiting waiver of
the right to file class actions and invalidating a
contract containing an arbitration agreement was
displaced by the Federal Arbitration Act)). See also
Preston v. Ferrer, 552 U.S. 346, 128 S. Ct. 978 (2008)
(state law granting labor commissioner exclusive
jurisdiction of labor disputes is superseded by the
Federal Arbitration Act when the parties agree to
arbitrate those disputes). The cases cited by the
Majority holding that the McCarran-Ferguson Act
preempts application of the Federal Arbitration Act if
the contract containing the arbitration clause involves
insurance either predate or do not discuss Marmet
Health Care Ctr. Inc. v. Brown.
¶13 Clearly, section 1855(D) of the Oklahoma
Arbitration Act is a state law that “prohibits outright
the arbitration of a particular type of claim,” that is,
claims which arise from contracts which reference
insurance. Marmet, 565 U.S. at 533, 132 S. Ct. at 1204.

48a
Although there is no controlling authority resolving
any conflict between the McCarran-Ferguson Act and
the Federal Arbitration Act, resolution of that issue
in this case is not required unless the McCarranFerguson Act applies.
¶14 For purposes of the McCarran analysis, the
initial question is not whether the contract between
the Sparks and Old Republic is a contract referencing
insurance according to Oklahoma law. Contracts
which “reference insurance,” as that term is used in
section 1855(D), but which do not involve the business
of insurance, are not contracts which invoke McCarran
preemption. See, e.g., Union Labor Life Ins. Co. v.
Pireno, 458 U.S. 119, 102 S. Ct. 3002 (1982) (agreement between insurer and professional organization to
determine the reasonable costs of chiropractic services
for health insurance policy reimbursement purposes
did not involve the business of insurance); Group Life
& Health Ins. Co. v. Royal Drug Co., 440 U.S. 205, 99
S. Ct. 1067 (1979) (holding that agreements between
insurer and pharmacies, which reduced the costs of
health insurance to policyholders, did not involve the
business of insurance).
¶15 The initial McCarran question is whether Old
Republic’s practice of issuing home warranty contracts, like the one issued to the Sparks, constitutes
the “business of insurance.” 15 U.S.C. § 1012(b). The
analysis for determining what constitutes the “business of insurance” is summarized in Pireno:
[T]hree criteria [are] relevant in determining
whether a particular practice is part of the
“business of insurance” . . . first, whether
the practice has the effect of transferring
or spreading a policyholder’s risk; second,
whether the practice is an integral part of the

49a
policy relationship between the insurer and
the insured; and third, whether the practice
is limited to entities within the insurance
industry.
Pireno, 458 U.S. at 129, 102 S. Ct. at 3009 (citing
Group Life & Health Ins. Co. v. Royal Drug Co., 440
U.S. 205, 99 S. Ct. 1067 (1979)). The Home Warranty
contract between the Sparks and Old Republic
satisfies this analysis. Subject to agreed limits, the
Home Warranty contract transfers the risk of repairing or replacing certain home appliances from the
Sparks to Old Republic. That risk transfer is central
to the relationship between the Sparks and Old
Republic. And, only entities licensed by or registered
with the Oklahoma Insurance Commissioner may
lawfully issue home warranty policies in Oklahoma.
See 36 O.S. Supp. 2014 § 6753(B), and 15 O.S. Supp.
2012 § 141.4(A). Consequently, for McCarran purposes, it does not matter whether this is a “Home
Service Contract,” 36 O.S.2011 § 6752(9), or a “Service
Warranty” contract, 15 O.S. Supp. 2014 § 141.2(17).
The parties’ Home Warranty contract was issued as
part of the business of insurance.
¶16 A federal statute that would otherwise supplant
a state statute is preempted by the McCarranFerguson Act if the federal statute (1) does not
“specifically relate[ ] to the business of insurance”; (2)
the state statute was enacted “for the purpose of
regulating the business of insurance”; and (3) the
federal statute would “invalidate, impair or supersede” the state statute. US. Dep’t of Treasury v. Fabe,
508 U.S. 491, 501, 113 S. Ct. 2202, 2208 (1993). The
first Fabe factor is satisfied. There is nothing in the
Federal Arbitration Act that specifically mentions or
relates to the business of insurance.

50a
¶17 The second Fabe factor is more difficult. Unlike
the “actual performance of an insurance contract”
found to be an essential part of the business of
insurance in Fabe, section 1855(D) does not affect the
allocation of risk between the Sparks and Old
Republic, and is not “an integral part of the policy
relationship.” Union Labor Life Ins. Co. v. Pireno, 458
U.S. 119, 129, 102 S. Ct. 3002, 3009 (1982). Section
1855(D) merely determines where the Sparks and
Old Republic will settle their to entities within the
insurance industry.” Id. Consequently, section 1855(D)
cannot have been enacted for the purpose of regulating
the business of insurance, and, therefore, does not
satisfy the second Pireno requirement.
¶18 The third Fabe factor is lacking as well.
Application of the Federal Arbitration Act would not
“invalidate, impair or supersede” section 1855(D). 15
U.S.C. § 1012(b). There is nothing in the express
language of the Federal Arbitration Act that would
“invalidate” or “supersede” section 1855(D). Nonetheless, if compelling arbitration in this case would
“impair” the effect of section 1855(D), the McCarran
Act may apply.
¶19 A federal statute can “impair” a state statute if
it frustrates a declared state policy or if it interferes
with a state regulatory regime. Humana Inc. v.
Forsyth, 525 U.S. 299, 310, 119 S. Ct. 710, 717 (1999).
The Federal Arbitration Act does not frustrate
Oklahoma’s public policy, nor is it inconsistent with
that declared State policy. In this area, the policies are
the same. Compare 12 O.S.2011 § 1857(A): “An agreement contained in a record to submit to arbitration
any existing or subsequent controversy arising between the parties to the agreement is valid, enforceable, and irrevocable except upon a ground that exists

51a
at law or in equity for the revocation of a contract,”
with 9 U.S.C. § 2: “A written provision in . . . a contract
evidencing a transaction involving commerce to settle
by arbitration a controversy thereafter arising out of
such contract or transaction . . . shall be valid, irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any
contract.” The Federal Arbitration Act “‘reflects an
emphatic federal policy in favor of arbitral dispute
resolution.’“ KPMG LLP v. Cocchi, 565 U.S. 18, 21, 132
S. Ct. 23, 25 (2011) (per curiam) (quoting Mitsubishi
Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473
U.S. 614, 631, 105 S. Ct. 3346, 3356 (1985)). Likewise,
“[n]o longer does Oklahoma disfavor arbitration. In
fact, we have a strong public policy which favors it.”
Rollings v. Thermodyne Indus., Inc., 1996 OK 6, ¶ 32,
910 P.2d 1030.
¶20 As to whether the Federal Arbitration Act
would interfere with Oklahoma’s regulatory regime,
the Oklahoma Legislature has answered that question. “The marketing, sale, offering for sale, issuance,
making, proposing to make and administration of
service warranties . . . shall be exempt from all
provisions of the Insurance Code.” 15 O.S. Supp. 2012
§ 141.4(E). And, “service warranties are not insurance
in this state or otherwise regulated under the Insurance Code.” 15 O.S. Supp. 2014 § 141.2(17)(f). Similarly, the “Oklahoma Home Service Contract Act
declares that home service contracts, as defined in
Section 6752 of this title, are not insurance and not
otherwise subject to the Insurance Code.” 36 O.S.
Supp. 2012 § 6751(A). See 36 O.S.2011 § 6752(9)
(“Home service contracts are not insurance in this
state or otherwise regulated under the Insurance
Code.”) Further, the “marketing, sale, offering for sale,
issuance, making, proposing to make and administra-

52a
tion of home service contracts. shall be exempt from
all other provisions of the Insurance Code.” 36 O.S.
Supp. 2012 § 6753(F).3
¶21 “When federal law does not directly conflict with
state regulation, and when application of the federal
law would not frustrate any declared state policy or
interfere with a State’s administrative regime, the
McCarran-Ferguson Act does not preclude its application.” Humana, Inc. v. Forsyth, 525 U.S. 299, 310, 119
S. Ct., 710, 717 (1999) (holding that federal RICO
statute did not impair Nevada criminal statutes and
was not preempted by McCarran-Ferguson). Because
the Oklahoma Legislature has specifically chosen to
exclude home warranty contracts from the State’s
laws regulating insurance, enforcement of the arbitration provision in the Sparks’ contract will not “frustrate” State public policy or “interfere with” Oklahoma’s
statutory insurance regulatory regime. Id. As a result,
enforcement of the Federal Arbitration Act and the
parties’ agreement to arbitrate this dispute will not
“impair” any Oklahoma statute “enacted . . . for the
purpose of regulating the business of insurance . . . .”
15 U.S.C. § 1012(b). Therefore, the McCarran-Ferguson Act does not apply to section 1855(D), and does not

3

The Oklahoma Supreme Court has also implied, without
directly deciding the issue, that Oklahoma law does not prohibit
the arbitration of disputes arising from insurance contracts. “In
the present matter, it must be shown that the arbitration clause
applies to the issue of underpayment of insurance coverage in the
[GAP insurance] policy. If this cannot be shown, the Court will
not impose arbitration upon the parties.” Harris v. David Stanley
Chevrolet, Inc., 2012 OK 9, ¶ 7, 273 P.3d 877. See also Embry v.
Innovative Aftermarket Sys., 2008 OK CIV APP 92, 198 P.3d 388,
(holding that a GAP policy is a contract of insurance).

53a
preempt enforcement of the Federal Arbitration Act in
this case.
¶22 For these reasons, I would reverse the order
appealed and remand with instructions to grant Old
Republic’s motion to compel arbitration.
November 19, 2018

54a
APPENDIX C
IN THE DISTRICT OF CLEVLAND COUNTY,
STATE OF OKLAHOMA
[Filed] February 8, 2017]
————
Sparks
Plaintiff(s)
Old Republic
Defendant(s)

Little
Attorney(s) for Plaintiffs
Smith/Waddell
Attorney(s) for Defendants

SUMMARY ORDER
Date: 2/7/17

Court Reporter:

Judge:

counsel appear mtn to compel arbitration denied mtn
to stay denied

/s/ [Illegible]
Judge

55a
APPENDIX D
IN THE DISTRICT COURT OF
CLEVELAND COUNTY
STATE OF OKLAHOMA
[Filed January 19, 2017]
————
Case No. CJ-16-795-TS
————
WILLIAM B. SPARKS and DONNA SPARKS,
Plaintiffs,
vs.
OLD REPUBLIC HOME PROTECTION COMPANY, INC.
(A Foreign Insurance Company), OLD REPUBLIC
INTERNATIONAL (A Foreign Insurance Company)
and ALL SEASON’S HEATING AND AIR, LLC.,
Defendants.
————
DEFENDANT OLD REPUBLIC HOME
PROTECTION CO., INC.’S
MOTION TO STAY AND COMPEL
ARBITRATION, AND BRIEF IN SUPPORT
————
TO THE HONORABLE JUDGE:
COMES NOW Defendant Old Republic Home Protection Co., Inc. (“Defendant” or “ORHP”)1 and files
In their lawsuit, Plaintiffs also named a separate and independent Old Republic entity, Old Republic International (“ORI”),
as a Defendant. ORI does not join in the filing of this motion,
however. because it is not a proper party to this lawsuit. ORI is a
1

56a
this Motion to Stay and Compel Arbitration and Stay,
and Brief in Support, and would respectfully show
the Court as follows:
I.
INTRODUCTION
Plaintiffs agreed, and are contractually bound, to
submit any dispute involving ORHP to binding arbitration. Plaintiffs and ORHP are parties to a home
warranty plan that includes, among other things, a
binding arbitration provision. And despite ORHP’s
request that Plaintiffs refer the matter to arbitration,
Plaintiffs have refused to honor their agreement;
instead, electing to proceed with their state court
action, causing ORHP to needlessly incur substantial
additional costs and expenses. The arbitration provision contained the parties’ home warranty plan is
binding and enforceable and this action should be
stayed and the matter referred to arbitration without
further delay.
II.
FACTUAL BACKGROUND
On July 7, 2016 Plaintiffs filed their Petition against
ORHP, among others, in which they allege that they
suffered a “covered loss.” based on some alleged damage caused to their home by their air conditioning
system. Plaintiffs’ Pet. at 1-2. Plaintiffs allege that,
non-operating entity that did not sponsor/issue the home warranty, did not provide any services or have any connection to the
home warranty and/or have any knowledge regarding the warranty and/or any of the facts or allegations that form the sole
basis of Plaintiffs’ claims against ORHP. Plaintiffs’ counsel has
been notified that ORI is an incorrect party but, as of the filing of
this motion, has not agreed to dismiss ORI from this lawsuit.

57a
pursuant to a Home Warranty Plan (the “Plan”) they
obtained from ORHP, they reported the loss to ORHP
but ORHP failed to act in a timely manner, wrongfully
refused to pay for Plaintiffs’ alleged losses, and was
negligent in retaining co-Defendant All Season’s
Heating and Air, LLC (“All Seasons”) to perform the
repairs. Id. at 2. True and correct copies of the Home
Warranty Plan and the Declaration of Coverage are
attached hereto as Exhibits A and B, respectively.
In connection with their alleged losses, Plaintiffs
asserted a bad faith cause of action against all defendants and seek recovery of punitive damages in
connection with those allegations. Id. at 2-3.2
Regardless of the merits of Plaintiffs’ allegations, all
of their claims against ORHP flow from and arise out
of rights and obligations allegedly contained in the
Plan. Accordingly, the terms and conditions of the
Plan govern all substantive and procedural aspects of
Plaintiffs’ claims against ORHP.
The contract that forms the basis of Plaintiff’s’
claims against ORHP contains a broad and enforceable arbitration provision. See Ex. A, at 9; E. B. To date,
no written discovery has been exchanged, no depositions have been scheduled, and the only pleading that
ORHP has submitted to this Court is its Answer. Thus,
ORHP has not taken advantage of any aspects of the
judicial process.

2

ORHP does not concede or otherwise admit or acknowledge
that it is, with respect to Plaintiffs’ bad faith cause of action, an
insurance company. That issue, however, is beyond the scope of
this Motion and has no bearing on the determination of whether
this proceeding should be stayed and the matter referred to
binding arbitration.

58a
II.
ARGUMENTS AND AUTHORITIES
A. Plaintiffs’ Claims Against ORHP Should Be
Referred To Arbitration.
The Plan that was expressly invoked by Plaintiff’s
and which forms the sole basis for the allegations
against ORCP contains the following binding arbitration provision:
Arbitration: By entering into this Agreement
the parties agree and acknowledge that all
dispute they have that involve us, or arise out
of action that we did or did not take, shall be
arbitrated as set forth herein as long as the
claim is in excess of the applicable claims
court jurisdictional limit. The parties further
agree that they are giving up the right to a jury
trial, and the right to participate in any class
action, private attorney general action, or
other representative or consolidated action
including any class arbitration or consolidated arbitration proceeding.
All disputes or claims between the parties
arising out of the agreement or the parties’
relationship shall be settled as follows:
1) Small claims court; for claims within the
applicable small claims court jurisdictional limit, or
2) Final and binding arbitration held in
the county of the covered property
address (or other location mutually
agreed upon by both parties) for claims
in excess of the Small Claims Court
jurisdictional limit.

59a
The arbitration shall be conducted by the
American Arbitration Association pursuant
to its rules for consumer disputes.
The parties expressly agree that this Agreement and this arbitration provision involve
and concern interstate commerce and are
governed by the provisions of the Federal
Arbitration Act . . . to the exclusion of any
different or inconsistent state or local law,
ordinance or judicial rule.
Ex. A at 9 (emphasis in original). Additionally, as
indicated by the Declaration of Coverage, Plaintiffs
were not only provided with additional notice of the
arbitration provision and given thirty (30) additional
days to cancel the Plan if they did not wish to agree to
arbitration. See Ex. B. Plaintiffs chose not to cancel the
Plan and agreed to be bound by the arbitration plan
provided therein.
Although the Plan explicitly requires the parties to
submit any disputes to arbitration, Plaintiffs elected
instead to file a Petition in State Court. Thus far,
Plaintiffs have refused—and continue to refuse—to
arbitrate. ORHP sent a written demand to arbitrate to
counsel for Plaintiffs on January 5, 2017 in an effort
to convince them to accept arbitration. A true and
correct copy of this letter is attached to this Motion as
Exhibit C and is incorporated fully by reference. Upon
receipt of ORHP’s arbitration demand. rather than
respond directly to ORHP’s demand, Plaintiffs immediately filed a motion seeking to have the case set for
trial on the Court’s jury docket. As of the date of this
filing, Plaintiffs’ actions demonstrate their outright
refusal to abide by the arbitration provision in the
Plan and have reaffirmed their intent to ignore the

60a
plain language of the Plan and continue to prosecute
their claims against ORI HP before this Court.
Plaintiffs’ claims against ORHP indisputably arise
out of or relate to the Plan. and, therefore, fall
squarely within the parameters of the arbitration
provision contained in that agreement. Plaintiffs’ allegations specifically invoke language of the claim and
are based on allegations as to ORHP’s “treatment of
Plaintiffs and the handling of their claims . . . .”
Plaintiff’s Pct. at 3. Plaintiffs and ORHP are equally
bound under the Plan to arbitrate. Thus, the agreement to arbitrate, as contained in the Plan, was
supported by consideration. Accordingly, all of the
claims asserted against ORHP arise out of or relate to
the binding and enforceable arbitration provision contained in the Plan and Plaintiffs’ should be compelled
to submit their claims to arbitration.
B. These Proceedings Should Be Stayed Pending
Arbitration.
The plain language of the Plan provides that it and
the included arbitration provision are governed by the
provisions of the Federal Arbitration Act (“FAA”). Ex.
A at 9. Section 3 of the FAA provides as follows:
If any suit or proceeding is brought in any of
the courts of the United States upon any issue
referable to arbitration under an agreement
in writing for such arbitration, the court in
which suit is pending, upon being satisfied
that the issue involved in such suit or proceeding is referable to arbitration under such
an agreement, shall on application of one of
the parties stay the trial of the action until
such arbitration has been had in accordance
with the terms of the agreement, providing

61a
the applicant for the stay is not in default in
proceeding with such arbitration.
9 U.S.C. § 3. Because Plaintiffs’ allege that ORHP
failed to comply with the terms of the Plan, their
claims and causes of action clearly present an issue
referable to arbitration under the Plan’s plain language. Accordingly, as provided by the FAA, a stay of
these proceedings is appropriate until the arbitration
has been conducted as the parties agreed.
III.
CONCLUSION
Based on the foregoing, ORHP respectfully requests
that the Court stay these proceedings and order
Plaintiffs to submit the entire controversy between the
parties to arbitration in accordance with arbitration
agreement contained in the Plan.
Respectfully submitted,
/s/ Jason Waddell
Jason Waddell, CBA# #30761
Jason Waddell, PLLC
222 NW 13th St.
Oklahoma City, OK 73103
(405) 232-5291
Fax (405) 708-7871
Jason@JasonWaddellLaw.com
ATTORNEYS FOR DEFENDANT
OLD REPUBLIC HOME
PROTECTION COMPANY, INC.

62a
CERTIFICATE OF CONFERENCE
The undersigned hereby certifies that a conference
was held with counsel for Plaintiffs regarding the
merits of this Motion and relief requested herein by
Defendant Old Republic Home Protection Co., Inc.
Agreement could not be reached, and therefore the
Motion is presented to the court for determination.
/s/ Jason Waddell
Jason Waddell
CERTIFICATE OF MAILING
This is to certify that on the 19 day of January, 2017,
a true and correct copy of the above and foregoing
instrument was mailed, postage prepaid, to:
David W. Little, Esq.
115 E. California Ave. — Bricktown
Miller-Jackson Building, Suite 350
Oklahoma City, OK 73104-2418
Mark E. Bialick
R. Ryan Deligans
DURBIN, LARIMORE & BIALICK
920 NORTH HARVEY
OKLAHOMA CITY, OK 73102
/s/ Jason Waddell
Jason Waddell

63a
APPENDIX E
OLD REPUBLIC HOME
PROTECTION COMPANY, INC.
Declaration of Coverage
DONNA SPARKS
1500 SW 38TH ST
MOORE OK 73160-2905

Covered Property:
Property Type*:
Plan Fee Amount:
Plan Ordered By:
Plan Contact Number:
Registration Code:
Effective Date:
Expiration Date:
Trade Call Fee:

1500 SW 38TH ST
MOORE, OK 73160-2905
Single-Family Dwelling
under 5,000 Sq. Ft.
$750.00
23245840 Renewal PP
MAM7TU
09/15/2016
11/04/2016
$75.00

64a
CONFIRMATION OF COVERAGE: To obtain the
most value from this Contract, it is important that you
understand the coverage that is offered, as well as the
limitations. Please read the enclosed Plan and then,
keep it handy throughout the term of coverage. The
Contract has been designed to provide coverage for
covered systems and appliances that become inoperable due to norm wear and use during the term of the
Contract. The Contract does not cover defects which
were known prior to the effective date of coverage.
*

IMPORTANT: Plan fees are based on property type/
square footage, and if the property type/square footage
listed is not accurate additional Plan fees (or a refund)
may be due. To make corrections, please call us at
800-445-6999. Please be advised that i during the
performance of service, we identify that additional
Plan fees are due, they must be paid at the time of
service.
DISPUTE RESOLUTION: While no one likes to
receive a complaint or to be involved in a dispute,
it can happen. If we are unable to resolve a dispute
through discussion, conciliation or mediation (each of
which are alternatives that we encourage), we are
committed to a quick, inexpensive dispute resolution
mechanism through arbitration. We do not believe
that costly, time consuming, and complex court cases
are an effective means for resolving disputes.
Accordingly, this Contract will be subject to the
Arbitration Provision outlined on Page 9. Please read
it carefully. Under this provision, you will be giving up
certain rights to have a dispute settled in court and/or
settled as a part of a multi party or class proceeding.
Georgia, Kentucky, South Carolina, Utah Residents:
Nothing contained in this provision will affect your
right to file direct claim against Old Republic Surety.

65a
If you do not want to agree to this provision, you may
cancel your Plan by contacting us at arbitration@
orhp.com within 30 days of purchase of your Home
Protection Plan. Otherwise, this arbitration provision
will be applicable.
OPTIONAL COVERAGE: Optional coverage that
has already been paid for is noted below. No other
options can be added at time of renewal.
Options already paid for and included in your
Plan: Platinum Protection

66a
APPENDIX F

People Helping People

Welcome! You’ve come to the right place for
superior budget protection, convenience,
and peace of mind.
Both home sellers and buyers greatly benefit
from an Old Republic Home Warranty Plan!
Home Sellers
Make your home more attractive to buyers by
offering the budget protection and peace of mind that
comes with an Old Republic Home Warranty Plan.
Buyers can relax knowing that a covered system or
appliance failure won’t break the bank, and including

67a
a home warranty in your listing may help your home
sell faster. . . at top market value!
In addition, Seller’s Coverage can help you breathe
easier by reducing your risk of experiencing
closing delays and incurring extra expenses
caused by home system and appliance breakdowns
during the listing and selling periods.
Home Buyers
In an ideal world, buying a home should be one of the
most memorable and rewarding experiences of your
life. However, the headaches caused by a heating system failure or a broken refrigerator could taint those
memories forever.
Safeguard your budget against expensive system
and appliance failures with an Old Republic Home
Warranty Plan. Enjoy exceptional peace of mind and
keep everything running smoothly long after you’ve
unpacked your boxes and settled into your American
dream.
Whether you are selling or buying a home,
you’re in excellent hands with Old Republic Home
Protection and our network of qualified Service
Providers. Experience peace of mind knowing that
help is just a phone call away—24 hours a day,
365 days a year!

68a

Heating System

Repair/Replacement Cost
Without a Home
Warranty†
$318-$3,911

Air Conditioning

$360-$5,100

Water Heater

$384-$2,331

Oven/Range

$325-$2,487

Refrigerator

$294-$1,904

Washer/Dryer

$230-$1,112

Item

*

*

Some items may be Optional Coverage items. See Plan for
terms and conditions of coverage.
†

Costs based on actual invoices paid by ORHP in 2014. Costs
may vary in your area.

69a
Why choose Old Republic Home Protection?
We’ve provided caring, dependable service for more
than 40 years, and our vision of “People Helping
People” is reflected in our A+ rating with the Better
Business Bureau.
How do we earn this distinction? We understand that
behind every service request—every dishwasher or
water heater failure—are real people with busy lives
and pressing needs. We’re committed to providing
effective, efficient solutions that help you celebrate the
joy of homeownership!
When you turn to us, our caring staff and skilled
Service Providers make it their mission to get
your life back to normal as quickly as possible.
People Helping People
We Care – we handle claims on a case-by-case basis:
fast, friendly, efficiently.
We Listen – we understand there is a human side to
home warranties.
We’re Dependable – we want to give solutions, not
excuses.
We’re Helpful and Sincere – we take pride in the
service we offer.
We Know – there is a difference between “company
policy” and “customer service.”
We Set the Premier Example – by offering comprehensive coverage and quality service at reasonable
rates.
Our Goal – is to create a positive difference in your
life.

70a

We’re just a phone call – or a click-away!
Place Applications:
Online
www.orhp.com
Phone
800.445.6999
Fax
800.866.2488
Mail
P.O. Box 5017
San Ramon, CA 94583-0917
Place Service Requests:
Online
www.orhp.com
Phone
800.972.5985

71a
Standard Coverage
This section of the Plan outlines Standard Coverage
by trade. Please Note: Universal Exclusion and limitations of liability apply. Coverage for Home Buyer only
unless Optional Seller’s Coverage Selected
Coverage Subject to Terms and Conditions summarized herein, and will be contained in the Plan
Contract to be mailed to Home Buyer upon payment of
Plan fee.
HEATING SYSTEM/DUCTWORK COVERAGE
Primary gas, oil, or electric heating system, built-in
wail or Boor heater, heat pump, thermostat, ductwork, accessible heat pump refrigerant lines and condensate drain lines. If necessary, as part of a covered
replacement, we will upgrade a heat pump system to
federally mandated HSPF standards.
Coverage is available for heating systems with capacity not exceeding five (5) tons per unit. There is no
limit to the number of covered heating units. For heat
pumps and heat pump package units: Coverage under
Central Air Conditioner/Cooler applies.
NOT COVERED: Timers/clocks that do not affect the
heating/cooling operation of the unit; vents; flues; fuel
storage tanks; freestanding/window units; cable heat;
zoning controls and respective equipment; secondary
drain pan; insulation; dampers; filters; diagnostic
testing of or locating leaks in ductwork (as required by
any federal, state or local regulation, or when required
due to the installation or replacement of system


We cover items located on the exterior or outside of the home
that service only the main home or other structure covered by
us.

72a
equipment); fireplaces and key valves; grain, wood or
pellet stoves (even if primary source of heat); minisplit ductless systems; use of cranes or other lifting
equipment to repair or replace units/system components; electronic air filters/cleaners; humidifiers
and respective equipment; chillers and respective
equipment; condensate drain pump,
AIR CONDITIONER/COOLER
(For ductwork. see Heating System Coverage)
Central air conditioner, wall or through the wall air
conditioner and evaporative coder (including primary
drain pan), condenser (including compressor), evaporative coil/air handler, thermostat refrigerant lines,
leaks or stoppages in accessible condensate drain
lines, metering device (e.g. evaporative coil piston or
thermal expansion valve).
When a condenser replacement is necessary, in order
to maintain system operational compatibility and
operating efficiency that meets or exceeds that of the
original equipment, we will replace any covered
component as well as modify the plenum, indoor
electrical, air handling transition, duct connections,
and the installation of metering devices, as necessary.


SEER Coverage: When unit/component
replacement is required, we will upgrade
to federally mandated SEER standards to
ensure operational compatibility and functionality with existing equipment.



R410A Coverage: For units using R22
refrigerant repair/replacement will be performed with R410A equipment when R22
replacement equipment is not available,
including covered components required to
ensure system operational compatibility.

73a
Coverage is available for cooling systems with capacity
not exceeding five (5) tons per unit. There is no limit
to the number of covered air conditioning units,
NOT COVERED: Gas air conditioning units; portable
units; zoning controls and respective equipment;
window units; cooler pads; secondary drain pan; minisplit ductless systems; use of cranes or other lifting
equipment to repair or replace units/system components; chillers and respective equipment; condensate
drain pump.
PLUMBING COVERAGE











Drain line Stoppages which can be cleared through
an accessible, existing ground level cleanout (main
line) or removable p-trap (branch line) with sewer
cable; including hydrojetting if stoppage is unable
to be cleared with cable (unless stoppage is due to
roots).
Water, Drain, Gas or Vent Pipe Leaks or Breaks
(including Polybutylene) Toilet Tanks, Bowls,
Flushing Mechanisms and Wax Ring Seals
Water Heater+ (including tankless, power vent,
and direct vent unit)
Built-in Jetted Bathtub Motor, Pump and Air
Switch Assemblies
Shower and Bathtub Valves, including Diverter
Valves
Recirculating Pump
 Instant Hot/Cold
Water Dispenser
Garbage Disposal
 Risers and Gate
Valves
Stop & Waste Valves  Angle Stops
Water Pressure
 Sump Pump (for
Regulator
ground water only)

74a
NOT COVERED: Fixtures; faucets; hose bibbs; multivalve manifolds and other attachments to pipes; gas
log tighter; toilet lids and seats; water heater vents
and flues; shower pans; stoppages due to roots;
leaks/damage caused by roots; stoppages that cannot
be cleared with cable or hydrojetting; water heater
heat pump attachment; holding, storage or expansion
tanks; bathtub jets; tub spout or tub spout diverter;
basket strainer; fire suppression systems; pop-up
assemblies; noises or odors without a related malfunction; caulking or grouting; inadequate or excessive
water pressure. In the event of a stoppage: access to
drain tines from vent; removal of toilet; and costs to
locate, access or install a ground level clean-out.
NOTE: 1. Toilet tanks and bowls replaced with white
builder’s standard, when necessary.
2. Valves will be replaced with chrome
builder’s standard, when necessary.
ELECTRICAL COVERAGE
Light Switches, Electrical Outlets, Main Electrical
Panel/Sub Panel, Meter Base/Socket/Pedestal,
Breakers, Fuses and Interior Wiring, Bath Exhaust
Fans, Ceiling Fans, Attic Fans, Whole House Fans,
NOT COVERED: Light fixtures, including those on
ceiling fans; bulbs; ballasts; heat lamps; doorbells;
telephone, audio, video, computer, intercom, and
alarm security wiring and systems; law voltage relay
systems; smoke detectors; inadequate wiring capacity;
power surges; overload; remote controls; vents; light
sockets.



We cover items located on the exterior or outside of the home that
service only the main home or other structure covered by us.

75a
GARAGE DOOR OPENER COVERAGE
All components of the Opener Unit including motor,
logic board, gear assembly, capacitor, raft assembly,
sensors.
NOT COVERED: Garage doors; hinges; springs;
remote transmitters; key pads; light sockets.
CENTRAL VACUUM COVERAGE
Power unit including motor and electrical components,
dirt canister.
NOT COVERED: Attachments; removable components; accessories; hoses; vents; stoppages.
APPLIANCE COVERAGE
Dishwasher
All components that affect the cleaning operation of
the unit including the pump, motor, gasket, tub, timer,
fill valve, seal, door latch, air gap, control board and
touch pad.
Trash Compactor
All components that affect the compacting operation of
the unit including motor, ram assembly switch and
door latch.
Kitchen Exhaust Fan
All components that affect the exhaust operation of the
unit including motor, selector switch and fan.
Oven, Range, Cooktop, Built-in Microwave Oven
All components that affect the heating/cleaning operation of the unit including heating element, thermostat,
burner, control board and touch pad, Timer and clock
are covered if they affect the heating or cleaning of the
unit.

76a
NOT COVERED: Timers; clocks; halogen units;
magnetic induction cooktops; refrigerator/ oven combination unit; microwave/cooktop drawer combination
unit; portable or freestanding microwave; sensi-heat
burners.
Kitchen Refrigerator Located in Kitchen. Coverage
for Home Buyer Only. Coverage for one Freestanding
or one Built-in Unit (Single or Dual Compressor), and
Ice Maker. All components that affect the cooling
operation of the unit including compressor,
thermostat, condenser coil, evaporator and defrost
system.
NOTE: Repair or replacement of ice makers, ice
crushers, beverage dispensers and their respective
equipment are covered for Kitchen Refrigerator only,
providing parts are available, II pans are not available, our obligation is limited to cash in lieu of repair.
NOT COVERED: Filter; interior thermal shell; food
spoilage; insulation; multi-media centers; wine vaults;
cost of recapture or disposal of refrigerant; refrigerator/oven combination units; removable components
which do not affect the primary function; kegerator.
Washer/Dryer (One Set) Coverage for Home
Buyer Only.
All components that affect the washing or drying
operation of the unit including belts, pump, motor,
tub, timer, drum, thermostat, transmission, heating
element, control board and touch pad.
NOT COVERED: Plastic mini-tub; venting; filter; lint
screen; all-in-one-tub wash/dry unit; soap dispenser,
NOT COVERED ON ALL APPLIANCES: Detachable components; baskets; buckets; dials; knobs;
handles; door glass; lights; light sockets; light switches;

77a
pans; trays; rollers; racks; shelves; runner guards;
interior lining; trim kits; vents; flues; drawers; lock
and key assemblies.
Coverage Plan Limits:
All Home Warranty Plans have limits to coverage.
We have clearly identified our limits for your
convenience.
Access, Diagnosis, Repair
and/or Replacement of the
following items are limited
as follows:

Dollar Limit
per Plan Term:

During Seller’s Coverage:
When Optional Seller’s Coverage selected:
Heating, Ductwork, A/C: (including water
heater/heating combination units)...................$1,500
Plumbing pipe leaks in water, drain or
gas lines located under, encased in, or
covered by, concrete. Plumbing pipe leaks
in Polybutylene piping.........................................$500
During Buyer’s Coverage:
Diesel, oil, Glycol, hot water, steam,
radiant, geothermal, water cooled and
water source systems, and water heater/
heating combination units ...............................$1,500
Ductwork, air transfer systems ..........................$500
Kitchen Refrigerator.........................................$2,500
Plumbing pipe leaks in water, drain
or gas lines located under, encased in,
or covered by, concrete. Plumbing pipe
leaks in Polybutylene piping ...............................$500

78a
INCREASE YOUR COVERAGE with
Ultimate or Platinum Protection!
Ultimate Protection
(Available to Home Buyer Only) ...................... $550
Includes: Standard Coverage PLUS these enhancements:
1) Plumbing: faucets, shower heads, and shower
arms replaced with chrome builder’s standard, as
necessary. Interior hose bibbs. Toilet replacement
up to $600 per toilet, when necessary, including
toilet seats and lids.
2) Heating System:
a) disposable titters, heat lamps, and cost related
to refrigerant recapture, reclaim and disposal
when required for diagnosis, repair or replacement of heat pumps. Provide for the use of
cranes to complete a heating repair/replacement.
3) Water Healer: expansion tanks.
4) Dishwasher: baskets, rollers, racks, runner guards.
5) Oven/Microwave/Range/Cooktop: racks, handles,
knobs, intoner lining.
6) Trash Compactor: lock and key assemblies,
buckets.
7) Smoke Detector: both battery operated and hardwired systems.
8) Garage Door Opener: hinges, springs, remote
transmitters, key pads.

79a
9) Air Conditioner:
a) disposable filters, condensate drain pumps,
secondary drain pans, window units, and costs
related to refrigerant recapture, reclaim and
disposal when required for diagnosis, repair or
replacement
b) Provide for the use of cranes to complete an A/C
repair/replacement.
10) Other Enhanced Coverage included in
Ultimate Protection: When required to render
a covered repair or replacement, we will:
a) Provide up to $250 per Plan to correct code
violations.
b) Provide up to $250 per occurrence for required
permits.
c) Provide haul away of a covered appliance,
system or component when replacing that
covered appliance, system or component.
d) Correct an improper installation/repair/modifi
cation of a system or appliance, or correct
any mismatch condition in terms of capacity/
efficiency in order to ensure system operational
compatibility and functionality. Coverage does
not apply if the cause of failure of the system
or appliance is solely due to the improper
installation/repair/modification or mismatch
condition, or if the system is undersized relative
to the square footage of the area being
heated/cooled. All other terms and conditions of
the Plan apply. if the improper installation/
repair/modification or mismatch condition is in
violation of a code requirement see 10a above.

80a
Platinum Protection
(Available to Home Buyer Only) ..................... $650
Most Comprehensive Coverage Available!
Includes: Ultimate Protection (above) PLUS these
additional enhancements:
1) Plumbing Items: tub spouts (replaced with chrome
builder’s standard, as necessary), tub spout
diverter, basket strainer.
2) Other Enhanced Coverage included in Platinum
Protection:
When required to render a covered service, we will:
a) Provide up to $250 per Plan to clear stoppages
due to roots or toward removal of toilets or other
access to clear a stoppage, including cost to
install a ground level cleanout.
Not Covered: Collapsed or broken lines outside
the main foundation; excavation.
b) Provide up to $1,000 per Plan for construction/
carpentry or other related costs necessary
to effect a covered repair or replacement
(including the correction of code violations).
Not Covered: Restoration of any wall, ceiling,
or floor coverings, cabinets, counter tops, tile,
paint, or the tike.
c) Provide up to $500 per Plan for repair/replacement of vents/flues, as necessary, as part of a
covered service.
d) Increase the Standard Plan limit per Plan Term
by $1,000 ($2,500 in total) for the repair/
replacement of diesel, oil, Glycol, hot water,
steam, radiant, geothermal, water cooled and
water sourced heating and air conditioner
systems.

81a
Optional Home Buyer Coverage

Buyer’s Optional Coverage Plan Limits
(With purchase of appropriate Option)
All Home Warranty Plans have limits to
coverage. We have clearly identified our limits
for your convenience.
Access, Diagnosis, Repair
and/or Replacement of the
following Options are
limited as follows:

Dollar Limit per
Optional
Coverage Plan
Term

Salt Water Circuit Board and Cell ...................$1,500
Limited Roof Leak Repair .................................$1,000
Additional Refrigeration Units (in total)..........$1,000
Well Pump and/or Booster Pump .....................$1,500
Enhanced Slab leak Limit/
External Pipe Leak (in total) ............................$2,500
Septic System/Sewage Ejector Pump ..................$500

82a
SWIMMING POOL/SPA EQUIPMENT ........ $180
No additional charge if separate equipment
SALTWATER EQUIPMENT
CIRCUIT BOARD AND CELL ....................... $175
Only available with Pool/Spa Equipment Coverage
Above ground and accessible working parts and components of heating and filtration system, including
heater, motor, filter, filter timer, diatomaceous filter
grid, pump, gaskets, timer, backwash/flush/check valve,
pool sweep motor and pump/booster pump, above
ground plumbing pipes and wiring, control panel.
Coverage also includes spa blower. With purchase of
appropriate option: salt water circuit board and cell.
NOT COVERED: Remote control panel and switches;
air switches; water chemistry control equipment and
materials (e.g. chlorinators, ionizers, ozonators, etc.);
disposable filtration mediums (sand, diatomaceous
earth, filter cartridges, etc.); skimmer; heat pump;
valve actuator motor; salt; salt water circuit board;
salt water cell; cleaning equipment including pop-up
heads, turbo valves, creepy crawlers and the like;
swim jet/resistance pool and respective equipment;
damage or failure as a result of chemical imbalance;
underground water, gas, and electrical lines; lights,
jets; ornamental fountain motors and pumps.
LIMITED ROOF LEAK REPAIR ..................... $100
The repair of specific leaks that occur in the roof
located over the occupied living area of the main
dwelling (excluding garage), provided the leaks are the
result of rain and/or normal wear and deterioration



We cover items located on the exterior or outside of the home
that service the main home or other structure covered by us.

83a
and the roof was watertight and in good condition on
the effective date of the Plan.
NOT COVERED: Gutters; drain lines; flashing; skylights; patio covers; scuppers; glass; sheet metal; roof
mounted installations; leaks that occur in a deck or
balcony when deck or balcony serves as the roof of the
structure below; leaks that result from or that are
caused by roof mounted installations; improper construction or repairs; missing or broken roof shingles or
tiles; damage caused by persons walking or standing
on the roof; failure to perform normal maintenance to
roof and gutters; improper installation; leaks manifested prior to the effective date of the Plan.
NOTE: An actual water leak must occur during the
coverage period for coverage to apply under this Plan.
If the area of the roof that is leaking has deteriorated
to such an extent that the leak cannot be repaired
without partial replacement of the roof, the company’s
obligation is limited to the cost of repair if such leak
had been repairable. In the event the roof has
exceeded its life expectancy and must be replaced, this
coverage will not apply.
Since not every home is the same Optional
Coverage outlined in this section is available to
meet the needs of your specific home. Optional
Coverage may be added at any time prior to
close of sale and up to 60 days after close of safe.
For homes not going through a Real Estate
transaction, Optional Coverage cannot be added
after the initial payment of Plan fee. Optional
Coverage not selected will be unavailable at
time of renewal. Please Note: Universal exclusions and limitations of liability apply.

84a
ADDITIONAL REFRIGERATION ..................... $50
Single Compressor Units Only,
Provides coverage for up to four additional refrigeration systems, such as Additional refrigerator, wet bar
refrigerator, wine refrigerator, freestanding freezer
and freestanding ice maker.
All components that affect the cooling operation of the
unit including compressor, thermostat, condenser coil,
evaporator and defrost system.
Freestanding ice maker includes coverage for ice
maker, ice crusher, beverage dispenser and respective
equipment.
NOT COVERED: Ice maker; ice crusher; beverage
dispenser and their respective equipment; filter:
interior thermal shell; food spoilage; insulation; multimedia centers; wine vaults; cost of recapture or disposal of refrigerant; refrigerator/oven combination
units; removable components which do not affect the
primary function; dual compressor units; kegerator.
NOT COVERED ON ALL APPLIANCES: Detachable components; baskets; buckets; dials; knobs;
handles; door glass; lights; light sockets; light
switches; pans; trays; rollers; racks; shelves; runner
guards; interior lining; trim kits; vents; flues; drawers;
lock and key assemblies.
WELL PUMP .................................................... $100
BOOSTER PUMP .............................................. $75
Pump servicing only the home or other structure
covered by us. Domestic use only. One well pump/booster
pump per Plan,
NOT COVERED: Control boxes; pressure switches;
capacitors or relays; cost of locating pump.

85a
ENHANCED SLAB LEAK LIMIT
EXTERNAL PIPE LEAK COVERAGE ......... $100
NOT AVAILABLE TO CONDOS OR MULTI-UNIT
BUILDINGS
When required to render a covered service, we will:
Internal Slab Leak Limit (Add a Maximum $1,000 to
Standard Plan Limit).
a) Increase the Standard Plan limit per Plan Term
by $1,000 for the repair/replacement of plumbing pipe leaks in water, drain or gas lines
located under, encased in, or covered by, concrete that are located within the interior of the
main foundation of the home and garage (inside
the load-bearing walls of the structure).
External Pipe Leak Limit (Maximum $1,000).
b) Provide coverage up to $1,000 for external pipe
leaks located outside the foundation of the
covered structure, including water, gas and
drain lines that service only the main home or
other structure covered by us. Repair or replace
exterior hose bibbs and main shut off valve,
NOT COVERED: Faucets; sprinkler systems; swimming pool/built-in pool piping; downspout landscape
drain lines; damage due to roots.
SEPTIC TANK PUMPING/SEPTIC SYSTEMS
INCLUDING SEWAGE EJECTOR .................... $75
NOT AVAILABLE ON NEW CONSTRUCTION PLAN
(Basement Bath? Check out this coverage!)
Septic Tank Pumping (For Single or Dual Compartment Tanks): Septic tank must service only the main
home or other structure covered by us. If a stoppage is
due to a septic tank back-up, we will pump the septic

86a
tank (and dispose of waste) one time during the term
of the Plan.
Septic System/Sewage Ejector Pump:
Aerobic pump, jet pump, grinder pump, sewage ejector
pump, septic tank and line kern house to tank.
NOT COVERED: Seepage pits; stoppage or damage
due to roots; the cost of locating tank; chemical treatments; tile fields and leach beds; leach lines; lateral
lines; insufficient capacity; level sensors/switches;
control panels; associated electrical lines.
When You Need Us

It can be inconvenient when a home system or
appliance unexpectedly breaks down. When you need
service, we are here to provide you with a helping hand
and peace of mind. Please take a few moments to
become familiar with the Plan and keep it handy. as it
will save you both time and money. This entire document explains all the terms and conditions of coverage,
with distinct sections to make the Plan easy to understand and simple to use. If you have any questions
about coverage, please visit www.orhp.com or contact
us directly at 1.800.972.5985.
Review the “ABC’s of Coverage” to ensure your service
issue is covered by the Plan. In accordance with the
terms and conditions of the Plan, we will repair or
replace systems and appliances mentioned as covered
and we exclude all others. Coverage is subject to limitations.

87a
We will provide service for covered systems or appliances which malfunction, and are reported, during the
term of the Plan that:
A) Are installed for diagnosis and located within
the interior of the main foundation of the home
and garage (inside the load-bearing walls of the
structure). Systems or appliances located on the
exterior or outside of the home (including porch,
patio, etc.) are not covered with the exception of
covered items marked with a ,
B) Were correctly installed and working properly
on the effective date of the Plan, and
C) Have become inoperable due to normal wear
and use (including rust, corrosion, and chemical
or sediment build-up). after the effective date of
coverage. Pre-existing conditions are not covered.
Coverage may apply to a malfunction which existed at
the effective date of the transfer of ownership if,
at that time, 1) the malfunction was unknown to the
home seller, agent, buyer, or home inspector, AND
2) the malfunction was undetectable and would not
have been detectable by visual inspection and simple
mechanical test. A visual inspection of the covered
item verifies that it appears structurally intact and
without damage or missing parts that would indicate
inoperability. A simple mechanical test consists of
turning the unit on and off, verifying the unit operates
without irregular sounds, smoke or other abnormal
outcome.

88a
For Service: Place service requests online at
www.orhp.com
or call us at 1.800.972.5985
 We accept service requests 24 hours a day, 365
days a year.
 We require you to contact us so we may have the
opportunity to select a Service Provider.
 We will not reimburse you for services performed
without our prior authorization.
When you place a service request we will notify an
INDEPENDENT CONTRACTOR (Service Provider)
who will contact you directly to schedule a convenient
appointment during normal business hours. Under
normal circumstances, our service effort will be
initiated within 48 hours. Throughout the service
effort, we urge you to take reasonable measures to
prevent secondary damage (e.g. turning off water to
the home in the case of a major pipe teak),
In cases of EMERGENCY, we will make reasonable
efforts to expedite service, including initiating our
service effort within 24 hours. An emergency is defined
as a service issue resulting in 1) No electricity, gas,
water or toilet facilities to the entire home; 2) A condition that immediately endangers health and safety; 3)
A condition that interferes with healthcare support of
occupants; and/or 4) A system malfunction that is
causing ongoing damage to the home. Other conditions
may, at our discretion, be considered an emergency. If
you should request non-emergency service outside of
normal business hours, you will be responsible for
additional fees, including overtime.

89a
If you experience any difficulties during the service
process, you can contact the Service Provider or us
directly for assistance.
You are responsible to pay a TRADE (SERVICE)
CALL FEE (TCF) when the Service Provider arrives
at your home, The TCF (or the actual cost of service.
whichever is less) is due for each dispatched service
request by trade (plumbing, electrical, appliance,
heating/air conditioning, etc.). Service work is guaranteed for 30 days. The TCF is due whether service is
covered or denied. Essentially, when we incur a cost of
service. you are responsible for a TCF. A TCF may
be due if you fail to be present at the scheduled
appointment time, if you cancel your request once the
Service Provider is in route to your home, or you
request a second opinion of the Service Provider’s
diagnosis. Failure to pay the TCF can result in
suspension of coverage until such time as the proper
fee is paid. At that time, coverage will be reinstated
but the term will not be extended. You will be
responsible for any fees incurred for collection efforts,
if required. We will not respond to a new service
request until all previous Trade Call Fees are paid.
To ensure you receive reputable and unbiased service,
we have built an extensive network of SERVICE
PROVIDERS who provide service to our Plan
Holders at fair and reasonable rates. Our network,
however, is not all inclusive for every trade, in every
town, across the nation. For that reason, we may
authorize you to contact an Independent Out-ofNetwork Contractor directly to obtain service.
When we request or authorize you to obtain an
INDEPENDENT OUT-OF-NETWORK CONTRACTOR
to perform diagnosis and/or service: 1) The Contractor
must be qualified, licensed, and insured, and charge

90a
fair and reasonable rates for parts and service, 2) Once
the technician is at the home, and prior to any services
being rendered, you must call our Authorization
Department with the technician’s diagnosis and dollar
amount of services required. 3) We will provide an
Authorization Number for the covered services and
dollar amount that we have authorized. Failure to
contact us as outlined may result in denial of coverage.
4) Upon completion of the authorized services, the
Contractor must provide you an itemized invoice for
the authorized charges. 5) You must submit the
itemized invoice, including the Authorization Number
provided by us, for reimbursement. 6) A Trade Call
Fee is due per trade, and will be deducted from any
reimbursement provided. 7) You are expected to pay
the Independent Out-of-Network Contractor directly
for the services rendered and then submit the invoice
to us for reimbursement We accept invoices by fax
(1.877.445.6999), post (P.O. Box 5017, San Ramon, CA
94583-0917) or email to: easyas123@orhp.com.
We have the sole right to determine whether a covered
system, appliance or component will be repaired or
replaced. We reserve the right to send a second opinion
at our expense. We are not responsible for non-covered
work performed or non-covered costs.
We reserve the right to provide CASH IN LIEU of
repair or replacement in the amount of our actual cost.
Payment will be provided based on our negotiated
rates with our Service Provider and/or Supplier network, which may be less than retail. We are not
responsible for work performed once you accept cash
in lieu of service. To ensure continued coverage of the
system or appliance for which we provide a cash in lieu
settlement, either during the current or future term of
coverage between you and us. you must provide proof

91a
of repair or replacement that meets our reasonable
satisfaction. You may send proof to ProofofRepair@
orhp.com.
If we provide reimbursement or cash in lieu of service,
our normal processing time, from date of receipt of
invoice/your acceptance to the issuance of a check, is
approximately two weeks.
Obligations under this service contract are backed by
the full faith and credit of Old Republic Home
Protection, Co., Inc.
Limitations of Liability
It is important that you understand the Plan
coverage as well as its limitations, as it may
affect the coverage that will be provided for any
service requested.
This Plan Contract is intended to provide quality
protection against the high cost of home repair. It is
intended to help reduce the Plan Holder’s out-ofpocket costs for covered services. Coverage is not all
inclusive; there may be situations in which you will be
responsible to pay additional costs for parts or services
not covered by the Plan. In those situations, we will
work with you to determine the best course of action
to reasonably minimize your out-of-pocket costs.
1. GENERAL LIMITATIONS.
DOES NOT COVER:

THIS.

PLAN.

A. System or appliance repairs, replacements or
upgrades required as a result of:
1. A malfunction due to missing components or
equipment;
2. A malfunction due to lack of capacity of the
existing system or appliance;

92a
3. A malfunction due to a system or appliance
with mismatched components in terms of
capacity or efficiency*;
4. Any federal, state, or local regulations or
ordinances; utility regulations; building or
zoning code.
B. Routine maintenance or cleaning.
C. Damage caused by people, pests, or pets.
D. Missing components.
E. Improper repair/installation/modification of the
covered item.*
F. Systems. appliances or components covered by
an existing manufacturer/ distributor/ or other
warranty.
G. Repair, replacement, installation, or modification of any covered system or component for
which a manufacturer has issued a warning,
recall, or other design flaw or determination of
defect.
H. Cosmetic or other defects that do not affect the
functioning of the unit.
I. Solar systems and components, including
holding tanks.
J. Electronic, computerized, pneumatic, energy, or
manual management systems.
K. Systems or appliances classified by the manufacturer as commercial, or commercial equipment modified for domestic use.

*

Additional Coverage may be available with Ultimate Protection.

93a
L. Electrolysis.
M. Outside or underground piping and components
for geothermal and water source heat pumps,
including well pumps and respective equipment.
N. Matching dimensions, color (including stainless
steel) or brand. We are responsible for providing
installation of equipment comparable in features (features that affect the operation of the
system or appliance), capacity and efficiency
only.
O. Systems and appliances that have no malfunction, that have not failed due to normal wear
and use, or that are not installed for diagnosis.
P. Services requested prior to the effective date of
the coverage or after the expiration date of
coverage.
Q. Services requested for Optional Coverage not
purchased, or for Options not available to Home
Seller.
2. PERMITS AND OTHER FEES:
A. You may be responsible for the payment of
additional fees not covered according to the
terms and conditions of the Plan. These fees
may include, but are not limited to:
1. The cost of permits and code upgrades.*
2. The cost to haul away components, systems
or appliances that have been replaced under
the terms of coverage.*
3. The cost for cranes* or other lifting equipment
*

Additional Coverage may be available with Ultimate Protection.

94a
4. The cost of construction, carpentry or other
modifications made necessary by existing or
installing different equipment**
5. Relocation of equipment.**
6. Costs related to refrigerant recapture,
reclaim and disposal.*
3. ACCESS:
A. When covered heating and plumbing service is
performed, access will be provided through
unobstructed walls, ceilings and floors only. In
that case, we will return access opening to a
rough finish condition (concrete, mud, wire,
drywall and tape).
B. We do not cover the restoration of any wall,
ceiling, or floor coverings, cabinets, counter
tops, tile, paint, or the like.
C. We are not responsible for providing or closing
access to covered items, except as noted above
or in Coverage Plan Limits.
D. We do not pay additional charges to remove or
install systems, appliances, or non-related
equipment in order to make a covered repair.
4. GENERAL EXCLUSIONS:
A. This Plan does not cover services required as a
result of:
1. Accidents; water damage; failure due to
power surge or overload; or structural
damage or defect.
2. Lightning; mud; earthquake; fire; flood;
freezing; ice; snow; sail movement; storms;
or acts of nature.
**

Additional Coverage may be available with Platinum Protection.

95a
B. Except where noted, we do not pay for upgrades;
components; or equipment required due to the
incompatibility of the existing equipment with
the replacement system; appliance; or component; or with new types of chemicals or material
utilized to operate the replacement equipment.
This includes without limitation, differences in
technology; refrigerant requirements; or efficiency as mandated by federal, state or local
governments. If upgrades are required, we cannot perform service until you complete corrective work. If additional costs are incurred in
order to comply with regulations, we will not be
responsible for the added expense.
C. We reserve the right to repair systems and
appliances with non-original manufacturer’s
parts, including rebuilt or refurbished parts.
D. We do not pay, nor are we liable, for secondary
or consequential loss or damage; personal or
property loss or damage; or bodily injury of any
kind.
E. We are not responsible for a Service Provider’s
neglect or delay; or their failure to provide service, repair or replacement; nor are we responsible for any delay in service, or failure to provide
service, which may be caused by conditions
beyond our control, such as, but not limited to,
parts on order, labor difficulties, or weather.
F. We do not pay for food spoilage; loss of income;
utility bills; or living expenses.
G. We are not responsible to perform service
involving, providing disposal of, or remediation
for, contaminants/hazardous/toxic materials,

96a
such as, but not limited to: asbestos; mold;
sewage spills; or lead paint.
H. We do not pay, nor are we liable, for any claim
arising as a result of any pathogenic organism
such as; bacteria; yeast; mildew; virus; rot or
fungus; mold or their spores; mycotoxins; or
other metabolic products. We are not, under any
circumstances, responsible for:
1. Diagnosis, repair, removal or remediation of
such substances;
2. Damages resulting from such substances,
even when caused by or related to a covered
malfunction;
3. Damages resulting from such substances,
regardless of any event or cause that contributed in any sequence to damage or injury.
Items You Should Know
Coverage Subject to Terms and Conditions of
Coverage summarized herein, and will be
contained in the Plan Contract to be mailed to
Home Buyer upon payment of Plan fee. Please
see, Cancellation and Arbitration clause below.
PLAN EFFECTIVE DATES:
Your Plan term (effective and expiration date) will be
indicated on the Declaration of Coverage, mailed to
you upon our receipt of payment.
We provide coverage for single family residential-use
resale and new construction homes less than 5,000 sq.
ft, unless amended by us prior to the effective date of
coverage. Resale and New Construction homes 5,000
sq. ft or more, multiple units, mother-in-law-units,
guest houses. casitas, and other structures are covered

97a
if appropriate fee is paid. Please call for quote.
Coverage for homes 10.000 sq. ft. or over is not
available. NOTE: Home Seller’s Coverage is not available on homes 5,000 sq. ft. or over, multi-unit dwellings, guest houses, casitas, properties not going
through a Real Estate transaction, For Sale by Owner
properties, and lease-purchase properties.
This coverage is for residential-use property only.
It does not cover commercial property or homes used
as a business, such as: nursing/care homes, fraternity/
sorority houses or day care centers.
If this Plan is for a duplex, triplex or four-plex, then
all units within the dwelling must be covered by an
ORHP Plan for applicable coverage to apply to shared
systems and appliances. For cost of Optional Coverage. multiply option cost by the number of units.
Common grounds and facilities are excluded.
HOME BUYER’S COVERAGE:
Home Buyer’s Coverage is effective for the term
indicated on the Declaration of Coverage. Coverage is
normally effective upon close of sale for a one-year
term. Your Plan effective date and term may vary.
The Plan fee must be received within 14 days
after close of sale. If you take possession prior to
close of sale (or obtain possession through rental or
lease agreement), the Plan fee is due upon occupancy
and coverage will begin upon receipt of Plan fee by
ORHP. We offer a 60 day grace period from the close
of sale during which you may add Optional Coverage.
You must request and pay for Optional Coverage
within the 60 day grace period or it shall be conclusively presumed that you do not wish to add
additional Optional Coverage. Upon receipt of additional Plan fee. an updated Declaration of Coverage

98a
will be issued to confirm the coverage provided.
Optional Coverage not selected will be unavailable at
time of renewal.
HOME SELLERS COVERAGE
(for listing/closing period):
Seller’s coverage is available only in conjunction
with the purchase of coverage for Home Buyer.
Coverage becomes effective the day the application is
received by us, and continues until the expiration of
the initial fisting period (up to 180 days), close of sale,
or listing termination; whichever occurs first. Should
close of sale not occur in the 180-day period, we may,
at our sole discretion, extend the seller’s coverage
period. Pre-existing conditions are not covered
for the Home Seller. Known defects of covered items
found at the time of home inspection are excluded from
coverage until proof of repair or replacement is received by us. You may send proof to ProofofRepair@
orhp.com.
FOR HOMES NOT GOING THROUGH A REAL
ESTATE TRANSACTION:
Plans are normally purchased as part of a Real Estate
transaction. If you are not involved in a resale transaction, Plan fees, terms or coverage may vary. Please
call for a quote. Coverage is effective 30 days following
receipt of payment by us. The effective date will be
confirmed on the Declaration of Coverage. Optional
Coverage cannot be added after the initial payment of
Plan fee. Pre-existing conditions are not covered
for homes not going through a real estate
transaction.

99a
RENEWALS:
The Plan will be renewed at our discretion. If your
Plan is eligible for renewal, we will notify you of the
Plan fee and terms of renewal approximately 60 days
prior to expiration of coverage. To ensure there is no
lapse of coverage, payment must be received prior to
Plan expiration. Plan fees may increase upon renewal.
TRANSFER BY PLAN HOLDER:
This Plan is transferable to a new owner. In that
event, please notify us.
Cancellation: This Plan is non-cancelable, except for
1) nonpayment of fees; 2) fraud or misrepresentation
of facts material to the Plan; 3) upon mutual agreement between you and ORHP; or 4) if you harm or
threaten the safety or well-being of ORHP, any
employee of ORHP, a Service Provider, or any property
of ORHP or of the Service Provider. If Plan is cancelled, you shall be entitled to a pro-rata refund of the
paid Plan fee for the unexpired term less service cost,
any other unpaid charges and a $50 processing fee.
Oklahoma Residents: Coverage afforded under this
contract is not guaranteed by the Oklahoma insurance
Guaranty Association
Arbitration: By entering into this Agreement the
parties agree and acknowledge that all disputes they
have that involve us, or arise out of actions that we did
or did not take, shall be arbitrated as set forth herein
as long as the claim is in excess of the applicable small
claims court jurisdictional limit. The parties further
agree that they are giving up the right to a jury trial,
and the right to participate in any class action, private
attorney general action, or other representative or

100a
consolidated action, including any class arbitration or
consolidated arbitration proceeding.
All disputes or claims between the parties arising out
of the agreement or the parties’ relationship shall be
settled as follows:
1) Small claims court; for claims within the
applicable small claims court jurisdictional
limit, or
2) Final and binding arbitration held in the county
of the covered property address (or other
location mutually agreed upon by both parties)
for claims in excess of the Small Claims Court
jurisdictional limit.
The arbitration shall be conducted by the American
Arbitration Association pursuant to its rules for
consumer disputes. Copies of the AAA Rules and
forms can be located at www.adr.org, or by calling
800.778.7879. The Company agrees to pay the initial
filing fee if the customer cannot afford to pay the fee
or to reimburse the customer for filing fees unless the
arbitrator determines that the claim is frivolous.
The parties expressly agree that this Agreement and
this arbitration provision involve and concern interstate commerce and are governed by the provisions of
the Federal Arbitration Act (9 U.S.C. § 1, et seq.) to
the exclusion of any different or inconsistent state or
local law, ordinance or judicial rule.

